<html>
<title> - H.R. 51: MAKING D.C. THE 51st STATE</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  H.R. 51: MAKING D.C. THE 51st STATE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2021

                               __________

                           Serial No. 117-10

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-960 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                            
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Vacancy

                     David Rapallo, Staff Director
                Mark Stephenson, Director of Legislation
                       Elisa LaNier, Chief Clerk
                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2021...................................     1

                               Witnesses

The Honorable Muriel Bowser, Mayor, District of Columbia
    Oral Statement...............................................     8

The Honorable Phil Mendelson, Chairman, Council of the District 
  of Columbia
    Oral Statement...............................................    10

Mr. Fitzroy Lee, Interim Chief Financial Officer, District of 
  Columbia
    Oral Statement...............................................    13

Mainon A. Schwartz, Legislative Attorney, Congressional Research 
  Service
    Oral Statement...............................................    14

Wade Henderson, Interim President and Chief Executive Officer, 
  The Leadership Conference on Civil and Human Rights
    Oral Statement...............................................    16

Harry Wingo, D.C. Veteran
    Oral Statement...............................................    18

Zack Smith, Legal Fellow, Meese Center Heritage Foundation
    Oral Statement...............................................    19

 Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

  * Testimony of Assistant Attorney General Viet Dinh; submitted 
  by Rep. Norton.
  * ACLU report regarding constitutionality of H.R. 51; submitted 
  by Rep. Norton.
  * List of 111 organizations who have endorsed H.R. 51; 
  submitted by Rep. Norton.
  * D.C. resident letter regarding support for statehood; 
  submitted by Rep. Norton.
  * D.C. Affairs Community letter regarding support for 
  statehood; submitted by Rep. Norton.
  * D.C. Developmental Disabilities Council testimony; submitted 
  by Rep. Norton.
  * Environmental and Faith Coalition letter regarding support 
  for statehood; submitted by Rep. Norton.
  * GWAC letter regarding support for statehood; submitted by 
  Rep. Norton.
  * GWU President letter regarding support for statehood; 
  submitted by Rep. Norton.
  * NARFE letter regarding support for statehood; submitted by 
  Rep. Norton.
  * SEIU letter regarding support for statehood; submitted by 
  Rep. Norton.
  * CAC letter regarding support for statehood; submitted by 
  Chairwoman Maloney.
  * DC Ban Factsheet; submitted by Chairwoman Maloney.

Documents entered into the record during this hearing, and 
  Questions for the Record (QFR's) with responses are available 
  at: docs.house.gov.

 
                  H.R. 51: MAKING D.C. THE 51st STATE

                              ----------                              


                         Monday, March 22, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 11:03 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Raskin, Khanna, Mfume, Tlaib, Porter, Davis, 
Wasserman Schultz, Welch, Johnson, Sarbanes, Kelly, DeSaulnier, 
Gomez, Pressley, Comer, Jordan, Gosar, Foxx, Hice, Grothman, 
Cloud, Higgins, Norman, Sessions, Keller, Biggs, Clyde, 
Franklin, Fallon, Herrell, and Donalds.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    Last Congress, I was proud to preside over the first markup 
of legislation to grant D.C. Statehood since 1993. And for the 
first time ever, the House passed legislation in 2020 that 
would have made D.C. a state. But the Republican-controlled 
Senate refused to even have a hearing or consider that bill.
    Even though we are only a few months into the new Congress, 
H.R. 51 already has 215 cosponsors. After years of stagnation 
and indifference to the rights of thousands of D.C. residents, 
there is real and sustained momentum behind this effort.
    This legislation would fulfill the promise of democracy for 
more than 712,000 Americans who call Washington, DC, their 
home.
    D.C. residents are American citizens. They fight honorably 
to protect our Nation overseas. They pay taxes. In fact, D.C. 
pays more in Federal taxes than 22 states and more per capita 
than any state in our Nation.
    D.C. residents have all the responsibilities of 
citizenship, but they have no congressional voting rights and 
only limited self-government.
    These fundamental disparities for hundreds of thousands of 
Americans conflict with the core principles of our Republic. 
Our country was founded on the belief that no people should be 
subjected to taxation without representation or be governed 
without the consent of the governed.
    Representative government only functions properly when all 
people have a voice in the laws that govern them. Our honorable 
colleague, Congresswoman Norton, represents her constituents 
exceptionally well, but is denied the opportunity to vote on 
the very laws that her constituents must follow.
    Congress has the responsibility to live up to the 
Constitution's goals. Statehood will finally grant D.C. 
residents full and equal democratic rights.
    D.C. residents themselves overwhelmingly support statehood. 
In 2016, an astonishing 86 percent voted in favor of becoming a 
state.
    Unfortunately, there is not one Republican cosponsor of 
this bill. In July 2020, Senator Lindsey Graham of South 
Carolina stated, and I quote, ``This is about expanding the 
Senate map,'' end quote.
    He misses the point entirely. The sad truth is that most of 
my Republican colleagues oppose D.C. Statehood simply because 
they believe it would dilute their power.
    In 2016, then Ohio Governor John Kasich was very blunt 
about this. He said, and I quote, ``What it really gets down 
to, if you want to be honest, is because they know that's just 
more votes in the Democratic Party,'' end quote.
    Adding D.C. Statehood and adding a state should not be 
about politics. It's about equality. It's about democracy. It 
is the responsibility of Congress to ensure that Americans are 
given their full rights demanded by the Constitution.
    My colleagues across the aisle are so concerned about 
maintaining the status quo that they are willing to make claims 
with no basis in fact in an effort to continue disenfranchising 
712,000 Americans.
    Just last week, in a press release about this hearing, 
Ranking Member Comer claimed that H.R. 51 doesn't address the 
financial burden on the new state. This is simply incorrect. 
The bill specifically includes transition assistance to the new 
state, something Congress has historically done when admitting 
new states into the Union.
    The simple truth is that the right to democracy should not 
be contingent on party registration.
    Today, I urge all members of this panel to rise above 
partisanship. I encourage everyone to have a respectful and 
robust debate with the fundamental goals of our Founders in 
mind. As President Abraham Lincoln declared in the Gettysburg 
Address, a true democracy is government of the people, by the 
people, and for the people.
    I thank all of our witnesses for being here today.
    I also thank the people of the District of Columbia for 
your patience, dedication, and fierce will to secure the rights 
for the people that they deserve.
    I now recognize the distinguished ranking member, Mr. 
Comer, for an opening statement.
    Mr. Comer. Thank you.
    Let's be very clear. Today's hearing is all about creating 
two new Democratic Senate seats.
    If you don't believe me, then listen to what our colleague 
across the aisle, Mr. Jamie Raskin, told The Washington Post, 
and I quote: ``But there's a national political logic for it, 
too, because the Senate has become the principal obstacle to 
social progress across a whole range of issues.''
    H.R. 51, D.C. Statehood, is actually plan B of the Democrat 
political power grab. Plan A was to eliminate the filibuster in 
the Senate. But since it appears Joe Manchin isn't going to 
play these dirty Democratic games, now Speaker Pelosi is 
stepping in with an unconstitutional bill to make Washington, 
DC, a city smaller than Columbus, Ohio, and a city that just 
happens to be 90 percent Democratic, the 51st state.
    D.C. Statehood is a key part of the radical leftist agenda 
to reshape America, along with the Green New Deal, defunding 
the police, and packing the U.S. Supreme Court.
    Many problems exist with H.R. 51. The first is that it is 
flatly unconstitutional.
    But don't take my word for it. Take the word of civil 
rights champion Robert F. Kennedy, who said 60 years ago that 
granting D.C. Statehood, absent a constitutional amendment, was 
inconceivable and would produce an absurdity.
    Take the word of all the Justice Departments from President 
Kennedy's to President Obama's.
    Take the word of John Dingell, a liberal titan, the 
longest-serving Member of Congress, who supported every single 
civil rights measure that passed before Congress for 40 years.
    Take the word of the late Senator Ted Kennedy, who 
dismissed what he called the statehood fallacy.
    Take the word of the former Delegate from D.C., my 
colleague Eleanor Holmes Norton's predecessor, who had opposed 
statehood and recognized the constitutional problem.
    Take the word of the Democratic-controlled Congress in 
1960, which explicitly rejected statehood and instead passed 
the 23rd Amendment, which gave D.C. three votes in the 
electoral college.
    Democrats even acknowledged the unconstitutionality of the 
bill by inserting language trying to fix it. Of course this 
language is meaningless, because the only way to fix it is by a 
constitutional amendment.
    The second problem is that this bill goes flatly against 
what the Founding Fathers wanted for our Capital City. The 
Founding Fathers were smart. They knew D.C. would grow as large 
as it is today. They envisioned it to be the size of Paris, 
which at the time is roughly equivalent to the size of D.C. 
today. They envisioned a thriving Capital City, with 
residential communities, green space, ports, and close access 
to America's leaders.
    The Founding Fathers knew this is what D.C. would become, 
everything that it is today, and they didn't want it to be a 
state. In fact, they overwhelmingly rejected it. They had other 
options, New York, Philadelphia, Trenton. Instead, they created 
D.C.
    Every Democrat who supports this bill should be asked one 
simple question: Is it their contention that the Founders did 
not anticipate all the arguments that are currently being made 
for D.C. Statehood?
    If they believe the Founders did not anticipate the 
arguments, they are wrong. Alexander Hamilton, in fact, 
proposed granting representation in the House to the District, 
and it was rejected while ratifying the Constitution.
    If Democrats believe the Founders did anticipate the 
arguments that they are making, they should be asked how we 
modify the Constitution for any other radical departure from 
the Founders' interpretation. The answer is simple, a 
constitutional amendment.
    I will not address the practical negative ramifications of 
D.C. Statehood, but will let me colleague from Georgia present 
those, and there are many.
    Liberal progressives supporting this bill support stealing 
billions from their very own constituents to send it straight 
to D.C. It's no wonder statehood for D.C. is so unpopular. For 
years, support for statehood across the country hasn't even 
reached 30 percent. Today, well over half of Americans reject 
D.C. Statehood.
    The Democrats arrogantly say that is because the American 
people don't understand what statehood means. But my 
constituents in Kentucky's First congressional District know 
exactly what it means, consolidating Speaker Pelosi's power in 
Washington to enact radical policies that have consistently 
been rejected by the American people.
    The Democrats want you to ignore the issues I've addressed, 
but we aren't going to let that happen. If Democrats were 
serious about D.C. becoming a state, they would introduce a 
constitutional amendment, like the U.S. Constitution implies 
must happen in not one but two places.
    But Democrats are not serious. Instead, they are setting 
aside the Constitution in order to give progressives a quick 
win so they can achieve their goals of defunding the police and 
enacting a Green New Deal.
    There is zero chance this bill would pass judicial review. 
The courts know better. The Senate knows better. All of our 
constituents, who Democrats prefer to call ignorant, even 
though they understand basic civics classes, know better.
    H.R. 51 is an unconstitutional and unworkable bill and is 
rejected by the American people. Congress must reject this 
proposal. Congress knows better.
    With that, Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    I now recognize Congresswoman Norton for her opening 
statement.
    Ms. Norton. Thank you very much, Chairwoman Maloney.
    Let me say at the outset that this hearing will refute each 
of the contentions just raised by the ranking member.
    Along with the residents of the District of Columbia, I 
greatly appreciate and thank you, Chairwoman Maloney, for this 
hearing today.
    This has been a historic year for D.C. Statehood. I 
introduced H.R. 51 with 202 original cosponsors. Today, the 
bill has 215 cosponsors, which virtually guarantees passage in 
the House, even with cosponsors alone.
    The Senate version, S. 51, was introduced with 38 original 
cosponsors and now has 41 cosponsors. We are particularly 
grateful to our Senate sponsor, Senator Tom Carper, who has 
gathered the largest number of original cosponsors ever. That 
speaks to mounting support for H.R. 51.
    When the House passed the D.C. Statehood bill last 
Congress, it was the first time in history that a Chamber of 
Congress had passed the bill. With Democrats controlling the 
House, the Senate, and the White House, we have never been 
closer to statehood.
    Under H.R. 51, the state of Washington, DC, which would 
consist of 66 of the 68 square miles of the present day Federal 
District. The reduced Federal District over which Congress 
would retain plenary authority would be two square miles and 
consist of the Washington that Members of Congress and visitors 
associate with the Nation's Capital, including the U.S. Capitol 
complex, the White House, the Supreme Court, the principal 
Federal monuments, and the National Mall. It would be called 
Capital.
    H.R. 51 has both the facts and the Constitution on its 
side. The Constitution does not establish any prerequisites for 
new states, but Congress generally has considered a prospective 
state's population and resources, support for statehood, and 
commitment to democracy.
    D.C.'s population of 712,000 is larger than that of two 
states. Indeed, the state of Washington, DC, would be one of 
seven states with a population under 1 million.
    D.C. pays more Federal taxes per capita than any state, any 
state already in the Union already with statehood, and pays 
more Federal taxes than 22 states. D.C.'s budget is larger than 
that of 12 states.
    Eighty-six percent of D.C. residents voted for statehood in 
2016. In fact, D.C. residents have been petitioning for voting 
rights in Congress and local autonomy ever since the District 
became the capital. That's 220 years ago.
    The Constitution's Admissions Clause gives Congress the 
authority to admit new states, and all 37 states have been 
admitted by an act of Congress. The Constitution's District 
Clause, which gives Congress plenary power or authority over 
the Federal District, sets a maximum, not a minimum size of the 
Federal District.
    Congress previously has reduced the size of the Federal 
District by 30 percent. The 23rd Amendment to the Constitution 
does not establish a minimum geographic or population size of 
the District.
    Conservative legal scholar and practitioner Viet Dinh, who 
served as an Assistant Attorney General in the George W. Bush 
Administration, has opined that the state of Washington, DC, 
can be admitted by an act of Congress.
    D.C. residents have fought and died in every American war, 
including the war that led to the creation of the Nation 
itself, the Revolutionary War. The servicemembers from our 
Nation's Capital have helped get voting rights for people 
throughout the world, but continue to come home without those 
same rights or even the same rights of those with whom they 
served.
    My own family has lived through almost 200 years of change 
in the District of Columbia, since my great-grandfather, 
Richard Holmes, as a slave walked away from a plantation in 
Virginia and made his way to the District.
    Today, it is my great honor to serve in the city where my 
family has lived without equal representation for almost two 
centuries.
    Congress can no longer allow D.C. residents to be sidelined 
in the democratic process, watching as Congress votes on 
matters that affect the Nation, with no say of their own, or 
watching as Congress votes to overturn the laws of the duly 
elected D.C. Council with no say of their own.
    Full democracy requires much more. D.C. residents deserve 
full voting representation in the Senate and House and complete 
control over local affairs. They deserve statehood.
    Congress has two choices. It can continue to exercise 
undemocratic, autocratic control over the American citizens who 
reside in our Nation's Capital, treating them, in the words of 
Frederick Douglass, as aliens, not citizens, but subjects. Or 
it can be live up to this Nation's promise and ideals, end 
taxation without representation, and pass H.R. 51.
    Again, Madam Chair, thank you for your leadership for D.C. 
equality.
    I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    The chair recognizes Mr. Hice for his opening statement.
    Mr. Hice.
    Mr. Hice. Thank you, Madam Chair.
    This bill is not the answer to voting rights in D.C.
    If D.C. were to become a state, the Founding Fathers 
recognized that it would be the first among states, and that is 
because the district where our Federal Government resides would 
be reliant upon the surrounding state, in this case D.C., for 
basic things like security, sewage, water, and a host of other 
needs.
    It would require foreign governments to negotiate with that 
state for embassies and other international matters.
    And, quite frankly, the Founding Fathers wanted none of 
this. They wanted Congress to have oversight over the District, 
something that Congress must retain to protect Federal 
interests.
    And it has worked for over 230 years. In fact, it has 
worked well. It's our duty as Representatives for all Americans 
that we safeguard their capital.
    But that's not good enough for progressives on the left, 
which leads me to some of the major practical problems with 
this bill.
    First of all, it is written to maximize the benefit of a 
new state of D.C. while burdening the American taxpayer. The 
lines, for example, of this newly envisioned state of D.C. are 
completely gerrymandered to maximize tax revenue. They do not 
include some of the Federal property contiguous with the map, 
but they do include others.
    Well, why did they do this? Well, the answer is simple: 
It's all about money. D.C. wants to become a state so it can 
levy taxes on people who are working in D.C.
    So, this means, if you live in Maryland, or Virginia, or 
West Virginia, Pennsylvania, wherever, but you work in D.C., 
your taxes are likely to go way up.
    This is going to result in stolen tax revenue from those 
states and potentially cripple their economies and their 
budgets, so that every time an American comes to Washington for 
spring break, for vacations, or whatever, and they cross one of 
the iconic bridges coming from the airport, they are likely 
going to be paying
    [inaudible].
    But it gets worse than that even. D.C. currently relies on 
hundreds of millions of dollars in Federal funding each year. 
The last time D.C. had full responsibility for its budget, the 
Federal Government had to step in and rescue D.C. from 
financial ruin. Currently, the Federal Government pays for the 
court system in D.C.
    That's right, one-third of D.C.'s entire government is paid 
by the American taxpayers.
    D.C. also currently doesn't have a prison. The Federal 
Government pays for thousands of D.C. prisoners in the Federal 
system to the tune of hundreds of millions of dollars every 
year.
    But D.C. doesn't want to build a prison. For decades the 
District has rejected a federally funded prison because D.C. 
officials, including our own colleague, Eleanor Holmes Norton, 
have said that the city is too small for a prison. So, under 
this bill the Federal Government would continue to pay for 
those prisoners to the tune of hundreds of millions of dollars 
each year.
    D.C. wants to continue to receive their special benefits 
for schools, for colleges, for roads, billions of dollars in 
Federal funds, in pensions, things that none of the other 
states get.
    We asked the District government for plans to pay for the 
likely major budget shortfalls if it were to become a state. 
Not surprisingly, they didn't provide any answers.
    Why not? Well, because they expect the Federal Government 
to continue funding it in the way that it has for the past 25 
years.
    So, under this bill, not only would D.C. become a state, 
but it would be the only state in the entire country to have 
the Federal Government pick up billions and billions of annual 
dollars in expenses each year.
    In other words, anybody supporting this bill as it is 
written is basically saying to their constituents that we think 
the people living in D.C. are entitled to more benefits than 
you are.
    D.C. wants the benefits of a state without actually having 
to operate like one. They want to be treated differently. They 
want to be treated better than all other states.
    D.C. wants to keep all these special perks, plus gain two 
more Democratic U.S. Senators. This would effectively shift the 
power to the left-wing progressives so that they can enact 
their radical agenda that Americans have rejected time and 
again.
    Under this bill, D.C. would, in fact, become the first 
among states, which is exactly what our Founders sought to 
avoid.
    D.C. would be the only state--the only state--without an 
airport, without a car dealership, without a capital city, 
without a landfill, without even a name on its own, and we 
could go on, and on, and on.
    But who would be left to provide all these services while 
it continues to receive billions of dollars for special 
programs? Well, we know the answer to that: The American people 
would.
    D.C. Statehood would mean a money grab from neighboring 
states and a power grab for the U.S. Senate, all done in an 
impractical and unconstitutional fashion.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    I would now like to introduce our witnesses.
    Our first witness today is the Honorable Muriel Bowser, who 
is the Mayor of the District of Columbia.
    Next, we will hear from the Honorable Phil Mendelson, who 
is the Council Chairman for the District of Columbia.
    Then, we will here from Mr. Fitzroy Lee, who is the interim 
Chief Financial Officer for D.C.
    Next, we will hear from Ms. Mainon Schwartz, who is the 
Legislative Attorney with the nonpartisan congressional 
Research Service.
    Then, we will hear from Wade Henderson, who is the interim 
president and CEO of the Leadership Conference on Civil and 
Human Rights.
    Next, we will hear from Harry Wingo, who is a District of 
Columbia veteran.
    Last but not least, we will hear from Zack Smith, who is a 
legal fellow at the Heritage Foundation.
    The witnesses will be unmuted so we can swear them in.
    Please raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses answered in the 
affirmative. Thank you.
    Without objection, your written statements will be part of 
our record.
    With that, Mayor Bowser, you are now recognized for your 
testimony.
    Please, your mic, your mic.

    STATEMENT OF MURIEL BOWSER, MAYOR, DISTRICT OF COLUMBIA

    Mayor Bowser. Thank you, Chairman Maloney, Ranking Member 
Comer, Congresswoman Norton, and members of this esteemed 
committee. On behalf of 712,000 residents of the District of 
Columbia, I thank you for convening this hearing on H.R. 51, 
the Washington, DC. Admission Act.
    In particular, we thank you for shepherding this measure to 
passage during the 116th Congress and we respectfully ask you 
to do it again.
    I want to especially thank our Congresswoman, Eleanor 
Holmes Norton, who has championed equality for Washington, DC, 
throughout her tenure, while skillfully delivering jobs, 
opportunity, and greater self-determination.
    I am Muriel Bowser, I am Mayor of Washington, DC, and I'm 
honored to come before this committee to ask this Congress to 
right the wrong that happened 220 years ago when the residents 
of the District of Columbia were stripped of their full 
congressional representation.
    Two years ago, in the 116th, I came before this committee 
under the leadership of the late Elijah Cummings to dispel 
erroneous arguments against D.C. Statehood. These are bad faith 
arguments, and I'm sure we will hear them time and time again 
this morning.
    They say Washington, DC, Statehood is unconstitutional, 
even though constitutional experts have refuted this claim. 
Article 1 of the Constitution is not an obstacle. As H.R. 51 
makes clear, a ``Federal district'' will remain for the Federal 
Government, its buildings, and its workings, and the rest of 
the area where people live will become the 51st state.
    They say Washington, DC, is too small, our economy is not 
diverse enough, even though we are bigger by population than 
two states and pay more per capita than any state. We pay more 
in total Federal taxes than 22 states.
    They say Washington, DC, can't take care of itself. This is 
simply not accurate. In fact, by many objective measures, D.C. 
is a better-governed jurisdiction than most states. We have 
balanced our budgets for 25 times in the last 25 years.
    And we already operate as a state and perform the same 
functions as states do. During the coronavirus pandemic, for 
example, we have led COVID-19 testing, contact tracing, and 
vaccination efforts, just as states do. And we are treated like 
a state in more than over 500 citations in Federal law.
    Again, two years ago, we debunked those claims as thinly 
veiled attacks on our political leanings and, quite frankly, on 
our diversity and history of Black political power.
    Today, I come to urge this committee and this Congress to 
move beyond the tired, nonfactual, and, frankly, anti-
democratic rhetoric and extend full democracy to the residents 
of the District of Columbia as the Founding Fathers saved for a 
later day.
    I was born in Washington, DC, and generations of my family, 
through no choice of our own, have been denied the fundamental 
right promised to all Americans, the right to full 
representation in Congress.
    The simple fact is denying American citizens a vote in the 
body that taxes them goes against the founding principles of 
this great Nation.
    The disenfranchisement of Washingtonians is one of the 
remaining glaring civil rights and voting rights issues of our 
time. Even as the Constitution was being drafted, several 
members foresaw the situations that Washingtonians face today, 
a Capital city of second class citizens.
    When White residents were the only population to be 
affected, as they were the only ones with suffrage at the time, 
the Founding Fathers pledged to correct the wrong, and the 
Continental Congress was eager to offer amendments to correct 
it.
    But, ultimately, the Constitution did not resolve the 
concerns around the future Federal District's congressional 
representation or self-governance.
    Why did the motivation to right the wrong disappear? As 
time passed, the District became majority African American. The 
drive to correct the wrong was replaced by racist efforts to 
subvert a growing and thriving Black city.
    Historic records abound with statements of successive 
Members of Congress referencing the ``Negro problem'' or the 
``color problem'' within D.C. as a justification to withhold 
congressional representation. This was their way of saying 
African Americans are unable to govern themselves, or vote for 
their best interests or, I dare say, be the face of the 
Nation's Capital.
    Surely, in 2020, this body cannot associate themselves with 
that view.
    Next month, we will celebrate President Lincoln signing the 
Emancipation Act that freed the slaves in the District of 
Columbia, April 16, 1862, months before the Emancipation 
Proclamation freed other enslaved people in our country.
    I hope to remind this Congress that District residents are 
still not free as we remain disenfranchised by this body. I 
urge all of you to do what over two centuries of lawmakers have 
failed to correct and grant full democracy to D.C. residents 
through statehood.
    The incremental enfranchisement of the District, limited 
enfranchisement, has historically been a bipartisan effort, but 
it is in no way a substitute for full representation in this 
Congress.
    Washington, DC, has been a true partner to the Federal 
Government in every aspect, even though Congress and Presidents 
have been sporadic partners to us. We have supported continuing 
the critical operations of this body and other Federal agencies 
within our borders.
    The Federal Government leaned on our health department to 
process coronavirus tests and administer vaccines to Federal 
employees and contractors. However, several provisions of 
Federal aid to respond to the coronavirus pandemic denied us 
state-level funding, shortchanging us $755 million in fiscal 
relief, even though we operate as a city, county, and state.
    We now thank you, Madam Chair, Speaker Pelosi, Leader 
Schumer, our Congresswoman, and your Democratic colleagues and 
President Biden, for righting that wrong last week with the 
American Rescue Plan.
    The events of January 6, where Congress was overtaken by 
insurrectionists, show that Congress need not fear the new 
state of Washington, DC, as it does not currently fear the 
states of Maryland or Virginia. Rather, the new state will be a 
necessary partner to securing the Federal interests, not a 
detractor.
    Arguing that Washingtonians must remain disenfranchised to 
protect the interests of the Federal Government is dangerous, 
outdated, and downright insulting.
    After years of disinvestment and disinterest when Congress 
did exercise full exclusive jurisdiction over the District and 
ran all of District governance, my predecessors and I, with 
Council Chair Mendelson and his colleagues and their 
predecessors, have worked hard to develop the fastest improving 
urban schools, invest in housing, healthcare facilities, 
recreational facilities, as well as a sports and entertainment 
and meetings based economy.
    We have proven our sound leadership, and there is no reason 
for this Congress not to right this wrong.
    Thank you again for allowing us to speak. And I'm happy to 
answer your questions.
    Chairwoman Maloney. Thank you.
    Chairman Mendelson, you are now recognized for your 
testimony.

STATEMENT OF PHIL MENDELSON, CHAIRMAN, COUNCIL OF THE DISTRICT 
                          OF COLUMBIA

    Mr. Mendelson. Thank you, Chairwoman Maloney, Ranking 
Member Comer, our congressional Representative, Eleanor Holmes 
Norton, and members of the committee.
    I am Phil Mendelson, Chairman of the Council of the 
District of Columbia. I am pleased to be testifying today on 
behalf of the Council in support of H.R. 51.
    Full and fair representation of the over 700,000 citizens 
residing in the District of Columbia is only possible through 
achieving statehood. And so I urge this committee and this 
Congress to move favorably and expeditiously on this measure.
    I want to make two fundamental points.
    First, it is time to recognize that the citizens of the 
District are citizens of the United States with all the 
responsibilities of citizenship, but they do not have the full 
rights of U.S. citizenship.
    We send our sons and daughters to war, we pay more in 
Federal taxes than 22 states, we pay more per capita than any 
state. There is nothing asked of citizens of the 50 states that 
is not asked of the citizens of the District of Columbia.
    And we step up. We pay or dues. But we do not have the most 
important privilege of United States citizenship. We do not 
have a vote in Congress, nor do we have sovereignty like the 50 
states.
    That is what we demand, that Congress give us what it has 
given to the citizens of 37 other states, full citizenship, 
statehood.
    We have sought incremental gains since the 1973 Home Rule 
Act, but the incrementalism leaves us short. Statehood is the 
only way to give to our citizens locally elected 
Representatives to enact purely local laws that will not be 
subject to national debates over divisive social issues.
    It is the only way to ensure a judicial system that is 
sensitive to community values. Statehood is the only way to 
give residents a full, guaranteed, and irrevocable voice in the 
national legislature.
    Statehood means the United States citizens of the District 
of Columbia will have the same rights and privileges enjoyed by 
the United States citizens of the 50 states.
    My second point is that opponents give lots of arguments, 
lots of arguments against statehood, but none of them overcome 
the basic principle that there should be no taxation without 
representation.
    Many Americans believe, incredibly, that the District 
government is still an agency of the Federal Government, 
existing on Federal appropriations. Therefore, they say, we 
should not have statehood.
    Well, they are wrong. As you know, we are not a Federal 
agency. In fact, less than one percent of our budget, $138 
million, is a discretionary Federal payment.
    Yes, we receive formula funds, but as a proportion of our 
budget, it is less than what other states receive in formula 
funds.
    In fact, our citizens contribute more in Federal taxes than 
22 other states. We are a so-called donor state.
    Many opponents have argued that the District is not capable 
of governing itself in a fiscally responsible manner.
    Well, today the District's financial status is the envy of 
jurisdictions across the country. Our revenues are growing--
outside of the pandemic--our spending stays within budget year 
after year, both our pension and our other post-employment 
benefit funds are fully funded, using conservative actuarial 
assumptions.
    No other state, no other state can boast this. For the last 
two years, our rainy day reserves equaled 60 days operating 
costs, a best practice.
    We are more than capable of governing ourselves.
    Some have argued that population size is a 
disqualification. Population size should not be a condition 
predicate to democracy. Nevertheless, the District's population 
is greater than that of Vermont or Wyoming and only slightly 
smaller than North Dakota and Alaska.
    And then some argue that retrocession is a better 
alternative and that it makes historical sense. This is 
unpopular with the citizens in both the District and Maryland.
    You may say, ``So what?'' to the citizens of the District, 
but you cannot say that to the citizens of Maryland. Congress 
cannot force retrocession on Maryland, so the idea is 
impractical.
    Some argue that there is too much federally owned land in 
the District. That is not a reason to disenfranchise over 
700,000 people. Nevertheless, as a percentage of total land, 
the District ranks 13th among states. We rank behind such 
states as Alaska, Arizona, Montana, and Wyoming.
    Another argument is that the Constitution intended it to be 
this way. I disagree. I don't believe the Founding Fathers 
actually intended this. There is no evidence, no evidence in 
Madison's notes or the Federalist Papers of discussion about 
disenfranchising the citizens of the Federal District.
    Rather, James Madison in Federalist 43 wrote that the 
citizens of the Federal District ``will have had their voice in 
the election of the government which is to exercise authority 
over them.'' Well, without statehood, we don't have that voice.
    Moreover, even though the Constitution is a great document, 
it is not perfect, as evidenced by its 27 amendments. The 
original method for electing the President and Vice President 
was flawed. The method for electing Senators has changed.
    Civil rights have changed radically, such as the 13th 
Amendment abolishing slavery and the 19th Amendment giving 
suffrage to women. Indeed, the issue before us is about civil 
rights, about the civil rights of District citizens to full 
citizenship.
    If you want to argue originalism, what was of concern to 
the Founding Fathers in creating a Federal District was to 
protect the government from riots, like Shays' Rebellion.
    But rather than the District of Columbia being the 
facilitator of the recent January 6 riots, the District came to 
your rescue. Yet we were impeded in trying to send the D.C. 
National Guard because we are not a state.
    Self-governance is the essence of democracy and freedom. 
The only option to gain both voting representation and full 
self-governance is to adopt H.R. 51 and grant statehood to the 
District.
    Not only are we not an agency of the Federal Government 
existing off its Treasury, but even if we were, that is not a 
reason to deprive over 700,000 individuals full sovereignty and 
representation in Congress.
    Not only are we small, but that is irrelevant to whether 
over 700,000 individuals should enjoy full citizenship.
    Not only do we run our government well, but we run it 
better than other states, and they have statehood. But how well 
people run their government has nothing do with whether they 
should be treated as United States citizens.
    The Council appreciates the committee's consideration of 
this matter and urges the adoption of H.R. 51 by the committee 
and the House.
    Thank you for hearing us.
    Chairwoman Maloney. Thank you.
    Mr. Lee, you are now recognized for your testimony.
    Mr. Lee.

  STATEMENT OF FITZROY LEE, INTERIM CHIEF FINANCIAL OFFICER, 
                      DISTRICT OF COLUMBIA

    Mr. Lee. Good morning, Chairwoman Maloney, Ranking Member 
Comer, and members of the House Committee on Oversight and 
Reform. I am Fitzroy Lee, interim Chief Financial Officer of 
the District of Columbia.
    The Office of the Chief Financial Officer is an independent 
agent charged with ensuring the District's long-term financial 
health and viability. I am pleased to provide testimony today 
on the District's finances, the current relationship between 
the District's budget and the Federal Government, and how the 
District of Columbia can transition to statehood.
    Like many jurisdictions, the District of Columbia's economy 
faces challenges as a result of the COVID-19 public health 
emergency. The pandemic caused an estimated $2.6 billion in 
lost revenues through the year 2025, hitting the District's 
budget as hard as any state.
    Through careful recession planning, prudent use of our 
reserves, and responsible decision-making by its elected 
leadership, the District has weathered this unprecedented 
challenge while still funding its budget priorities.
    The District of Columbia concluded its most recent Fiscal 
Year with a positive general fund balance of over $3.2 billion.
    The District's triple-A credit rating, an important 
indicator of overall financial health, is an accomplishment 
achieved by only 10 of the 25 largest cities and a rating 
higher than 32 other states.
    The bond rating is a testament to the sound financial 
management practices that have been established in law and 
continue to be enhanced by the Office of the Chief Financial 
Officer and the District's elected leadership.
    These practices include a balanced budget and multiyear 
financial plan, a six-year capital improvement plan, quarterly 
revenue estimates, a self-imposed debt limit to restrict 
borrowing, and the best practice level of cash reserves, 
including six days of operating revenues.
    The District has implemented a capital asset inventory 
system and long-range capital financial plan to bring all 
assets or infrastructure to a state of good repair by the year 
2031. No other city or state has developed an implementable 
program to reach this goal.
    The District also is unique in having fully funded its 
public safety and teacher pension trust funds, as well as its 
retiree healthcare benefits trust funds.
    Finally, the District has received 24 consecutive years of 
clean independent audits.
    A common misperception is that the District is strictly a 
government town. Yet, only 25 percent of the work force are 
Federal Government employees. From 2010 to 2019, while Federal 
Government employment declined by 15,000, private sector jobs 
grew by 95,000.
    The District has developed into a vibrant and dynamic 
jurisdiction with a diversifying economic base. Some of the 
fastest growing private sector industries over the last several 
years include professional services, hospitality, sports, and 
entertainment.
    The District is a destination where people choose to live, 
work, and play, with five major sports teams, world class 
restaurants, and thriving neighborhoods.
    The District's population has grown 25 percent over the 
last two decades and now stands at over 700,0000, making it the 
20th largest city.
    This economic diversity increases our resilience and 
financial dexterity, and we expect that robust private sector 
growth will continue to anchor the District's solid economic 
performance.
    In many respects the District already functions as a state. 
The District collects income taxes, administers worker's 
compensation and unemployment insurance, and runs a Department 
of Motor Vehicles. In addition, the District funds and provides 
services such as police, public works, and education to 
residents, businesses, commuters, and visitors.
    The District does not receive an annual Federal payment to 
cover its operations. Over 75 percent of District revenue is 
generated from our local taxes and fees. The District budget is 
comparable to other states in its reliance on Federal dollars 
for Medicaid, education, other human services, and 
transportation.
    With transition to statehood, we expect that certain 
functions currently managed by the Federal Government will fall 
to the new state.
    The true financial impact of statehood will depend on 
policy decisions yet to be made by Congress and the newly 
elected state government, as District policymakers adopt future 
budgets to take over responsibilities that are currently 
Federal.
    My office stands ready to advise on the policies being 
considered to accommodate new state functions.
    In conclusion, the fiscal foundation of the District is 
extremely strong, even in the face of the global pandemic. The 
District is more than capable of transitioning to statehood and 
will work with the Federal Government to ensure a smooth 
transition.
    Thank you for allowing me the opportunity to provide 
testimony. I'm happy to answer any questions you may have.
    Chairwoman Maloney. Thank you.
    Ms. Schwartz, you are now recognized for your testimony.
    Ms. Schwartz.

      STATEMENT OF MAINON SCHWARTZ, LEGISLATIVE ATTORNEY, 
                 CONGRESSIONAL RESEARCH SERVICE

    Ms. Schwartz. Chairwoman Maloney, Ranking Member Comer, and 
distinguished members of the Committee on Oversight and Reform, 
my name is Mainon Schwartz, and I am a Legislative Attorney in 
the American Law Division of the congressional Research 
Service. Thank you for inviting me today to discuss Congress' 
constitutional authority to enact H.R. 51, the Washington, DC. 
Admission Act.
    H.R. 51 would, if enacted, confer statehood on a portion of 
what is currently the District of Columbia pursuant to the 
Admissions Clause found in Article IV, Section 3 of the U.S. 
Constitution. That clause gives Congress the sole authority to 
admit new states into the Union, subject to the condition that 
new states may not be formed within the jurisdiction of an 
existing state, nor by combining other states or parts of 
states without those states' consent.
    The new state, Douglass Commonwealth, created by H.R. 51, 
would not be formed within the jurisdiction of an existing 
state nor by combining others. However, it would be the first 
state to be formed from land previously designated as the seat 
of Federal Government, pursuant to the District Clause found in 
Article I, Section 8, Clause 17 of the Constitution.
    This clause gives Congress the authority, quote, ``to 
exercise exclusive Legislation in all Cases whatsoever, over 
such District (not exceeding ten miles square) as may, by 
Cession of particular states, and the Acceptance of Congress, 
become the Seat of Government of the United States.''
    Scholars disagree over whether the District Clause poses a 
constitutional barrier to Congress' ability to exercise its 
Admissions Clause powers over a portion of the District of 
Columbia.
    Those who oppose statehood argue, for example, that once 
the District had been established it became permanent, or that 
a minimum size is necessary to carry out the functions that the 
Framers envisioned.
    Those who support statehood point out that those 
restrictions are not found within the text of the Constitution 
and may reflect policy judgments rather than constitutional 
objections.
    A separate challenge may arise under the 23rd Amendment, 
ratified in 1961, which directs, quote, ``the District 
constituting the seat of Government of the United States,'' 
close quote, to appoint electors who will be considered as 
electors appointed by a state for the purpose of electing the 
President and Vice President in the electoral college.
    Although H.R. 51 provides for expedited consideration of a 
constitutional amendment to repeal the 23rd Amendment, that 
cannot be effectuated by simple legislation and requires the 
votes of three-fourths of the states to ratify the new 
constitutional amendment. Congress, of course, cannot guarantee 
that that will happen, even with the expedited consideration of 
the bill to do so.
    In short, novel legislation, like H.R. 51, is likely to 
invite legal challenges raising issues of first impression. The 
interplay among these constitutional provisions has rarely been 
raised in Federal courts, so there is very little judicial 
guidance.
    One of the only pieces of judicial guidance we have comes 
from the 1875 case of Phillips v. Payne, which raised 
constitutional objections to the retrocession of what was the 
western portion of the District of Columbia that had been ceded 
by the state of Virginia.
    However, because the retrocession was effectuated in 1846, 
but the case did not make its way to the Supreme Court until 
1875, the Supreme Court declined to examine the constitutional 
issues on the merits and refused to disturb what was by then 
the settled situation with Virginia having accepted back the 
portion of land that it had originally ceded to the District. 
As such, that case does not provide much guidance on the 
constitutional issues at play today.
    So, whereas here, with H.R. 51, reasonable minds can 
differ, the outcome of any constitutional challenge to H.R. 51 
cannot be predicted with any certainty.
    In fact, there is a substantial possibility that courts 
would decline to hear a constitutional challenge altogether 
pursuant to the Court's justiciability doctrines. As such, 
Congress should carefully consider these issues when deciding 
what action to take on H.R. 51.
    I look forward to your questions. Thank you again.
    Chairwoman Maloney. Thank you.
    Mr. Henderson, you are now recognized for your testimony.
    Mr. Henderson.

   STATEMENT OF WADE HENDERSON, INTERIM PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, THE LEADERSHIP CONFERENCE ON CIVIL AND HUMAN 
                             RIGHTS

    Mr. Henderson. Good morning, Chairwoman Maloney, Ranking 
Member Comer, and members of the committee. Thank you for the 
opportunity to speak before you today regarding the Leadership 
Conference's strong support for H.R. 51, the Washington, DC. 
Admission Act.
    The Leadership Conference is the Nation's premier civil and 
human rights coalition, with over 220 national organizations 
working to build an America as good as its ideals.
    I would like to speak about this bill, both as a lifelong 
civil and human rights advocate, as well as a native 
Washingtonian.
    Throughout my career I have seen and fought for changes 
that have made our Nation a more perfect Union, a Nation more 
fully aligned with its founding principles of justice, 
fairness, and inclusion.
    I have seen this progress in Washington, DC, as well. When 
I was born in the old Freedman's Hospital on Howard 
University's campus, the city's hospitals were segregated along 
racial lines by law. That is no longer the case.
    Bloomingdale, where I grew up and where I now own a home, 
was once a segregated neighborhood by law and by custom. Today, 
however, people of all races live in the area as my neighbors 
and friends.
    Gone, too, are the remnants of de jure separate schooling 
that sent me to an all-Black elementary school despite the fact 
that I started grade school after the landmark ruling in Brown 
v. Board of Education that outlawed racial segregation.
    Yet one thing still has yet to change for me as a lifelong 
resident of Washington. In spite of all the progress we have 
seen and in spite of all my efforts to speak out on Capitol 
Hill on behalf of other Americans, I have never had anyone 
meaningfully represent me on Capitol Hill.
    For more than 200 years, my hundreds of thousands of 
neighbors and I have been mere spectators to our democracy. 
Even though we pay Federal taxes, fight courageously in wars, 
and fulfill our obligations of citizenship, we still have no 
voice when Congress makes decisions on matters as important as 
taxes and spending, healthcare, justice reform, education, 
immigration, and the environment.
    From a broader civil and human rights perspective, the 
disenfranchisement of D.C. residents stands out as the most 
blatant violation of the most important civil right that 
Americans have--the right to vote--and it only perpetuates the 
underlying animus that has been present since the District's 
founding.
    For example, when Congress was deliberating the question of 
voting rights for D.C. residents toward the end of the 19th 
century, Alabama Senator John Tyler Morgan argued that rather 
than grant political power to the District's Black population, 
Congress should, and I quote, ``deny the right of suffrage 
entirely to every human being in the District.'' He said it was 
necessary to, quote, ``burn down the barn to get rid of the 
rats,'' unquote.
    More than 100 years later, this stain of racial voter 
suppression persists. In the past year, D.C. residents have 
been subjected to several humiliating reminders of our second 
class status.
    Last March, Congress shorted the District by $755 million 
in COVID-19 assistance because it treated the District as a 
territory rather than as a state, even though its residents pay 
Federal taxes just like residents of every other state.
    Last summer, the former administration called in Federal 
law enforcement and National Guard troops from other states 
over the objection of our Mayor to disrupt peaceful protests 
against police brutality and racism, including violently 
clearing a street to allow for a Presidential photo-op in front 
of St. John's Church.
    And on January 6, the same administration dragged its heels 
for hours, again over the objections of our Mayor, before 
finally deploying D.C.'s National Guard to quell the deadly 
attack of right-wing militia on the U.S. Capitol.
    We simply cannot be the democracy we say we are when the 
lives of more than 700,000 people are at the mercy of political 
whim.
    Our Nation has made great progress throughout its history 
in expanding the right to vote. In the process, it has become a 
model for the world. Yet, it remains painfully clear that the 
right to vote is meaningless if we can't put anyone into 
office.
    Washingtonians have been deprived of this right for more 
than two centuries, often on grounds that had nothing to do 
with constitutional design and everything to do with matters of 
race. Until statehood is achieved, the efforts of the civil 
rights movement will remain incomplete.
    Extending representation and self-governance to D.C. 
residents is one of the highest legislative priorities of the 
Leadership Conference, as it is for me on a very personal 
level. D.C. residents should not have to abandon our homes and 
move elsewhere to secure the rights of citizens enjoyed by 
others.
    H.R. 51 will move us closer to our shared ideals for which 
District residents have fought and died. I am grateful that you 
brought the D.C. Statehood bill up for discussion, and I look 
forward to working with you to make it a reality.
    Thank you for the opportunity to speak before the committee 
today. Thank you.
    Chairwoman Maloney. Thank you.
    Mr. Wingo, you are now recognized for your testimony. Mr. 
Wingo.

             STATEMENT OF HARRY WINGO, D.C. VETERAN

    Mr. Wingo. Thank you, Chairwoman Maloney, Ranking Member 
Comer, Congresswoman Norton, and other members of the 
committee. I appreciate the opportunity to testify in support 
of H.R. 51, legislation to finally grant statehood to the 
712,000 residents of Washington, DC.
    I am Harry Wingo, a D.C. veteran. I work for the U.S. 
Department of Defense, but the views I express today are my own 
and do not reflect the official policy or position of my 
employer, the National Defense University, DOD, or the U.S. 
Government. I only speak for myself and for those many D.C. 
veterans who support D.C. Statehood.
    I'm not here today to discuss constitutional law, even 
though I'm a Yale law grad. Today, I simply ask that as you 
consider D.C. Statehood, you pause to take into account the 
sacrifice of the over 30,000 veterans who live in Washington. 
I'm one of those veterans.
    I'm a third-generation military veteran, in fact. My 
grandfather served in the trenches and survived the horrors of 
poison gas in World War I. My father, Harry Wingo, Sr., served 
35 years in the Army and Army Reserve, rising from the rank of 
private to the rank of chief warrant officer three. I 
personally spent 6-1/2 years in the U.S. Navy SEAL teams, after 
graduating from Annapolis. After graduating with BUD/S class 
157, I earned my Trident.
    As a Navy SEAL officer, I focused first on underwater 
demolitions with SEAL Delivery Vehicle Team ONE, locking out of 
nuclear submarines with mini-subs. Next, I spent several years 
leading men in the conduct of counter-drug operations 
throughout Latin America, including being a military adviser in 
the jungles of Colombia. That was with Special Boat Unit 26, 
reporting to Naval Special Warfare Unit 8 and U.S. Southern 
Command. Then I came home to attend law school and began a 
career in technology, law, and policy, that led me to where I 
currently serve at the National Defense University at the 
College of Information and Cyberspace.
    I saw firsthand, before that, as CEO of the D.C. Chamber of 
Commerce, the contributions that D.C. veterans make to the 
vibrant economy of Washington. The business leaders, the 
businesses large and small. In 2015, Mayor Bowser selected me 
to be chairperson of the Advisory Board on Veterans Affairs for 
the District of Columbia, a role that I was honored to fulfill.
    No taxation without representation has been a worthy 
rallying cry for D.C. Statehood. D.C. veterans have more to 
say. We should not have to sacrifice without representation. 
According to a July 2020 report by the congressional Research 
Service, the number of D.C. veterans who have given their lives 
in combat compares honorably to other states, perhaps 
remarkably given our disenfranchisement. According to that 
report, 202 D.C. servicemembers died in combat in World War I; 
in World War II, 1,449 were killed in action; in the Korean 
War, 158 from D.C. died, a number greater than the deaths for 
10 other states. In Vietnam, 242 from D.C. died in combat, 
surpassing the number from 10 other states.
    More recently, publicly available DOD information from the 
Defense Casualty Analysis System lists five D.C. veterans among 
the fallen from Operation Iraqi Freedom and lists four from 
Operation Enduring Freedom. These grim statistics demonstrate 
the price D.C. veterans have paid and continue to pay for the 
inalienable rights of others, even though we are denied those 
rights ourselves.
    To those who oppose D.C. Statehood, I respectfully ask: How 
can you ask D.C. veterans to keep carrying the burden of 
disenfranchisement when we have shouldered the burden of 
defending our country, having D.C. veterans earn no less than 
the full represented democracy that comes only with statehood?
    Before this hearing, I listened to the stories of fellow 
D.C. veterans, including members of Veterans United for D.C. 
Statehood, led by Hector Rodriguez. I listened to Ms. 
Antoinette Scott, the first female member of the D.C. National 
Guard to be awarded the Purple Heart after being wounded in an 
IED attack in Operation Iraqi Freedom. I spoke with D.C. native 
Dr. Howard Clark, a Marine, who during combat deployments to 
Iraq and Afghanistan wondered why some in Congress supported 
giving residents of Baghdad and Kabul the right to vote for 
their national legislature but denied this very right to 
Americans, much less military veterans in our own capital.
    It was only after my naval service and law school that I 
ventured routinely in the Federal court downtown D.C. to clerk 
for the late Honorable Judge James Robertson, a Navy veteran, 
and as service counsel to the late great Senator Ted Stevens of 
Alaska, then chairman of the Senate Commerce Committee and a 
World War II veteran, an aviator. Now I live in northwest D.C. 
with my wife and daughters, and like so many D.C. veterans, we 
are for statehood because of our sacrifice.
    Since the founding of the Nation, the people of D.C. have 
since grown to share a unique culture for its common experience 
and tradition, including the sacrifice of military service. 
Congress should choose freedom and equality for all 
Washingtonians and especially for D.C. veterans.
    Thank you for your consideration. I look forward to any 
questions you may have.
    Chairwoman Maloney. Thank you.
    Mr. Smith, you are now recognized for your testimony. Mic, 
please.

 STATEMENT OF ZACK SMITH, LEGAL FELLOW, MEESE CENTER, HERITAGE 
                           FOUNDATION

    Mr. Smith. Thank you.
    Good afternoon. We're here today to answer one simple 
question: Does Congress have the power to transform our 
Nation's capital into our Nation's 51st state by simple 
legislation for historical, practical, and, most importantly, 
constitutional reasons? The answer is resoundingly no.
    Now, while some have said that the objections I plan to 
discuss today are specious legal arguments, are bad-faith 
arguments, as Mayor Bowser has previously said, this just isn't 
true. Both Republican and Democratic Justice Departments who 
have looked at the issue have said that a constitutional 
amendment is required for D.C. Statehood. More troublingly, 
some have said or implied that race or racism is behind these 
objections. Again, that's just not true.
    These objections are based on the text and structure of the 
Constitution. Delegate Norton's predecessor, Walter Fauntroy, 
did not favor statehood for the District of Columbia because he 
said it would be in direct defiance of the prescriptions of our 
Founding Fathers. Even Mayor Bowser's predecessor, Walter E. 
Washington, the District's first home-rule mayor, for practical 
reasons opposed statehood for the District of Columbia. He said 
that the Federal interest in this city goes beyond Pennsylvania 
Avenue, it goes beyond Constitution Avenue, and that the 
Federal interest and the city's interest are intertwined; that 
to tear them apart would rip the city at the seams and would 
threaten its continued viability.
    So, what are the constitutional objections to D.C. 
Statehood? Well, the first and most significant involves the 
23rd Amendment. Now advocates for H.R. 51 certainly recognize 
that the existence of the 23rd Amendment poses a constitutional 
problem for them. Unfortunately, H.R. 51 seeks to deal with 
this problem in a wholly inadequate and itself unconstitutional 
manner. It seeks to nullify the clear commands of the 23rd 
Amendment that the District, constituting the seat of 
government, shall appoint electors for President and Vice 
President, and it proposes to nullify this by simple 
legislation. It does propose a constitutional amendment and 
hopes and encourages Congress and the states to pass it in 
order to avoid the absurd result where only a handful of people 
living in the new Nation's rump capital would control three 
electoral votes.
    It should be clear to everyone that Congress cannot, 
Congress should not nullify a constitutional provision by 
simple legislation.
    Now, we've also heard the argument that the Admissions 
Clause, Article IV, Section 3 of the Constitution, allows 
Congress to take this action and that, in fact, Congress has 
previously taken this action 37 times in our Nation's history. 
Well, fair enough, but for our purposes here today, the 
Admissions Clause is constitutionally irrelevant because none 
of those other 37 states owe their very existence to a separate 
constitutional provision. The District owes its existence to 
the District Clause, Article I, Section 8, Clause 17. But even 
if Congress could transform the District into a new state by 
simple legislation, we have to ask the question whether it 
should. And, again, the answer is no.
    The Framers of our Constitution wanted a separate Federal 
District to preserve the safety and security of the Federal 
Government. We've heard some mention of that here today, but it 
doesn't take much imagination to imagine a different mayor or a 
different city government disagreeing with the Federal 
Government over essential security functions. In fact, we saw 
some of that this past summer.
    The Framers also wanted to avoid one state having undue 
influence over the Federal Government. There's no question that 
D.C. residents already impact the national debate. For the 
members here today, how many of you saw D.C. Statehood yard 
signs or bumper stickers or banners on your way to this hearing 
today? I certainly did. Where else in the Nation could such 
simple actions reach so many Members of Congress?
    And then there are practical reasons why the District 
should not become our Nation's 51st state. It would be our 
Nation's only city-state. It'd be 17 times smaller than our 
next smallest state, and would lack many amenities and 
resources found in nearly every other state. Unfortunately, 
H.R. 51 takes a grant statehood now, work out the details later 
approach, especially with regards to funding for courts and 
prisoners.
    There's no question that years of litigation, nearly every 
law or action passed by the new state or the Federal Government 
could be called into question and that even a future 
Presidential election could be called into question if the 23rd 
Amendment is not resolved. Advocates for D.C. Statehood do no 
one, not themselves, not the District residents, not our Nation 
any favors by seeking D.C. Statehood in this manner. Because if 
we stretch and bend the Constitution, even for what we may 
perceive to be laudable purposes, where would we turn in the 
future when we may need its protections.
    Thank you. I welcome any questions.
    Chairwoman Maloney. Thank you for your testimony.
    Ms. Norton. Madam Chair, I would like to ask unanimous 
consent to enter several items into the record.
    Chairwoman Maloney. So granted.
    Ms. Norton. The testimony of former George W. Bush 
Administration Assistant Attorney General Viet Dinh in support 
of the constitutionality of the D.C. Statehood bill; the ACLU 
analysis in support of the constitutionality of the bill; a 
list of 111 organizations, including 84 national organizations 
that have endorsed the bill; and a letter from a D.C. resident, 
Andrea Renee Reed, in support of statehood.
    Chairwoman Maloney. Without objection.
    Chairwoman Maloney. Thank you.
    The chair now recognizes herself for five minutes for 
questions.
    The United States is the only democratic country that 
denies voting representation in the national legislature to the 
residents of its capital. In the year 2021, we should not need 
to discuss the importance of voting rights in a democracy, but 
Republican opposition to H.R. 51, as well as the voting 
restrictions Republican legislators are trying to impose across 
the country, requires us to revisit first principles.
    Now, I have heard today and I've heard in discussions when 
we discussed this issue from my friends on the other side of 
the aisle, and they try to frame that the support, that the 
push for D.C. Statehood is a power grab from the Democrats. And 
I would say that the real power grab is denying 712,000 
taxpaying American citizens the right to vote.
    This is not about politics; it is a fundamental voting and 
civil rights issue. And it is outrageous that Republicans would 
play a partisan politics just to block 712,000 Americans from 
having full equality in our democracy. Every American deserves 
a voice in their own government. Taxation without 
representation was the battle cry of our revolution, and it is 
still a battle cry.
    I would like to direct my first question to Mr. Henderson, 
who is the CEO of the Leadership Conference on Civil and Human 
Rights, and he speaks with some authority on these issues. In 
the last year, we lost several giants of the civil rights 
movement, including the former chair of this committee, Elijah 
Cummings, and also our dear colleague, John Lewis, a civil 
rights hero. And they were both strong supporters of D.C. 
Statehood.
    So, my question to you is that you said that until D.C. 
residents have a voting Congress, and I'm quoting you, ``the 
efforts of the civil rights movement will remain incomplete,'' 
end quote. Can you elaborate on your statement? Why do you view 
this as a continuation of the civil rights movement? Mr. 
Henderson.
    Please unmute, Mr. Henderson.
    Mr. Henderson. So sorry. Thank you, Madam Chair.
    As you described our Nation's contribution to the world, it 
is quite clear that we are the most significant representative 
democracy the world has ever seen, and yet we are burdened by 
contradiction, even as we attempt to bring democratic values to 
the rest of the world. We deny 700,000--over 700,000 citizens 
of our Nation's capital, citizens of the country, the right to 
participate meaningfully in our national legislature and in our 
democratic debate, while seeking to bring that same level of 
protection to the residents of Kabul, Afghanistan, or Baghdad, 
Iraq.
    That is noble; however, that contradiction simply cannot 
stand. It makes us look weak. It makes us look fearful of the 
contributions that others have. I heard arguments this morning 
that suggest, well, Congress created this enclave known as the 
District of Columbia to ensure that it was not dependent on the 
support of surrounding states to protect its interest. That 
argument is absolutely laughable, having seen the insurrection 
of January 6 in which our Congress of the United States was 
virtually overthrown the first time since the war of 1812 by 
individuals who had absolutely no respect for the rule of law 
or the interest that Congress purports to represent.
    It is quite clear that the decision to deny voting rights 
to D.C. residents has been influenced by issues of race and 
concerns about the population of the District as, at one time, 
a majority Black population coming into our Union. I quoted 
from an Alabama senator who previously recognized this dilemma 
and spoke openly about his hostility to providing coverage to--
citizenship coverage to the residents of the District because 
of race.
    All of these reasons taken together suggest that, indeed, 
the deprivation of rights to D.C. residents is one of the 
greatest denials of the most fundamental rights that citizens 
of the United States enjoy.
    And one last point. It is, you know, arguable that someone 
has said that D.C. residents getting citizenship is a power 
grab. But let me suggest to you that in the state of Maryland, 
which is traditionally seen as, quote, a democratic bastion, we 
have a very popular Republican Governor who enjoys widespread 
support of all citizens of Maryland.
    We also have had advocates in the past, including Frederick 
Douglass, but also more recently, Jack Kemp and Senator Bob 
Dole, who have been strong advocates for D.C. Statehood. Far be 
it for me to suggest to any member of a political party that 
they are unable to compete for the votes of D.C. residents 
simply by virtue of their political affiliation. I think there 
is much evidence to suggest that is simply not true.
    Chairwoman Maloney. Thank you. My time is up.
    I just want to answer and complete with, as Republican 
Dwight Eisenhower said in his 1954 State of the Union, and I 
quote: ``In the District of Columbia, the time is long overdue 
for granting national suffrage to its citizens and also 
applying the principle of local self-government to the Nation's 
capital,'' end quote. I could not agree more.
    And I yield back.
    And I now recognize Ranking Member Comer.
    Mr. Comer. Thank you, Madam Chair.
    And I'm going to direct my questions to Mayor Bowser. But, 
first, a couple of my colleagues and a couple of the Democrat 
witnesses have mentioned that Republicans are playing partisan 
politics with D.C. Statehood. I just want to clarify for the 
record. This Congress, the House of Representatives' two 
priority bills that have passed are H.R. 1, the election--the 
Federal election takeover bill, as I call it, and the $1.9 
trillion stimulus bill. Both those bills passed the House of 
Representatives without a single Republican vote. So, when we 
look at partisanship, I think that the Democrats thus far in 
this Congress have displayed partisanship at unprecedented 
levels and I hope that we can change that.
    But, Mayor, is it accurate to say that you think statehood 
is necessary to ensure D.C. residents are on equal footing with 
every other American? If D.C. were to become a state and 
receive all the benefits, shouldn't it have the same 
obligations as well?
    Mayor Bowser. Congressman, yes. If your question is, do 
D.C. residents expect to participate fully in our American 
democracy, the answer is yes. Just as we do today, paying our 
fair share--some would argue more than our fair share--of 
Federal taxes without representation or full autonomy.
    Mr. Comer. So, it should have the same obligations as well, 
correct, with respect--let me further elaborate. D.C. has a 
legislative, executive, and judicial branch, but with respect 
to the judicial branch, how is that funded?
    Mayor Bowser. The judicial branch is part of the Federal 
Government, and D.C. residents look forward to having a 
judiciary that is accountable to its citizens.
    Mr. Comer. So right now, the Federal Government provides 
funding for over $600 million per year for the D.C. judicial 
branch. Under H.R. 51, the D.C. Statehood bill, if D.C. were to 
become a state, would Washington, DC. pick up that $600 million 
tab?
    Mayor Bowser. Our courts, our prosecutor's office, our 
Federal parole board would become state departments.
    Mr. Comer. With respect to Medicaid, the Medicaid rate for 
Washington, DC, paid for by the Federal Government, is 73.5 
percent. You have mentioned previously that D.C. has a state 
population higher than Vermont and Wyoming.
    Do you know the current Medicaid rate paid for by the 
Federal Government for those states, by any chance?
    Mayor Bowser. I do not.
    Mr. Comer. Wyoming, it's--the Federal Government pays for 
52.6 percent of their Medicaid, and Vermont's 59.3 percent, but 
in Washington, DC, it's 73.5 percent. And, again----
    Mayor Bowser. But, Congressman, I have to tell you, it's 
not the same in each state. In fact, I'm not sure what it is in 
Kentucky or in other states, but we actually think that we 
would make the argument for rates that are commensurate with 
our health statistics.
    Mr. Comer. I wonder, if Washington, DC. were to become a 
state--and we will repeatedly make the point through this 
hearing, the minority will, that that will require a 
constitutional amendment. But if that were to happen, I wonder, 
Mayor, do you think this would lead other states to split and 
try to create their own states?
    For example, in California, there's been a movement for 
many, many years to create the 51st state there. A lot of--in 
fact, the majority of the map of California feels 
disenfranchised because so much of the population lives in San 
Francisco, Los Angeles, San Diego, and they don't feel like the 
representation in Sacramento or their Representatives in 
Washington represent their values. And, oh, by the way, 
conservatives would like it because that would bust up 
California's electoral college number and potentially elect one 
or two Republican Senators.
    Now, I just wonder if you feel like that would lead to a 
movement among other states to do the same thing?
    Mayor Bowser. Congressman, the people of the District sent 
me here for a singular purpose, and that was to advocate for 
them. And we know that the only way to achieve full quality as 
American taxpayers is through statehood. And the people of 
California who you mention have two Senators. We do not. So, 
the situations are not analogous. We are here to demand that 
the 220-year history of us not being represented in the capital 
of our country be corrected, and this Congress has within its 
full authority to do that.
    Mr. Comer. Should every city have two U.S. Senators? Would 
Washington consider rejoining Maryland as a state----
    Mayor Bowser. Every American, Congressman, who pays taxes 
deserves representation. Our Congresswoman should have a vote 
and we should have two Senators. Citizens of other cities and 
states in the United States of America have two Senators. We do 
not.
    Mr. Comer. Well, we're going to make the argument, Madam 
Chair, that many Democrat Presidents, many Democrat attorneys 
general have made in the past, and we look forward to a vibrant 
discussion on this. But I will conclude by saying, H.R. 51 is 
an unconstitutional bill. I think most people here realize 
that. I think this is another political game that the Democrats 
are playing, but, hopefully, we can get to a point this 
Congress where we can work together in truly bipartisan ways to 
do the things that the American people sent us up here to do.
    So, Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentlewoman from the District of Columbia, Ms. Norton, 
is recognized for five minutes.
    Ms. Norton. It's interesting, Madam Chair, that the 
gentleman cites a small movement in California to succeed from 
the state. The District is asking for the opposite, to join the 
Union, with full equality, with the states.
    My questions are for Ms. Schwartz of the congressional 
Research Service. I'd like to look at three issues that have 
been mentioned here: that H.R. 51 violates the District Clause, 
the Admissions Clause, and the 23rd Amendment. That would be 
three violations, but the way to look at this issue is to look 
at the statute itself as the primary reference.
    So, Ms. Schwartz, how many numbers are used in the District 
Clause?
    Ms. Schwartz. I'm sorry. Your question is how many numbers 
are used in the District Clause?
    Ms. Norton. Yes.
    Ms. Schwartz. There's a provision that the District may not 
exceed 10 miles square.
    Ms. Norton. That's the number that's important to focus on 
here. Remember, I'm looking at statutory construction. Is that 
number, 10 miles square, preceded by words ``not exceeding'' or 
``not less than''?
    Ms. Schwartz. Not exceeding.
    Ms. Norton. The District Clause says Congress shall have 
the power to, quote, exercise exclusive jurisdiction in all 
cases whatsoever over the District, and the Supreme Court has 
held this phrase means Congress has plenary authority over the 
Federal District.
    Ms. Schwartz, for the nine lawyers watching this hearing, 
and I'm trying to settle on exactly what the statute says here, 
statutory construction, Ms. Schwartz, the text of--watching 
this hearing--does the term primary mean--what does the text 
plenary--I'm sorry--plenary mean in this context?
    Supreme Court has held that the phrase means Congress has 
plenary. That's technical language. What does that mean?
    Ms. Schwartz. Plenary means very close to absolute.
    Ms. Norton. All right. The text of the District Clause is 
clear. Congress has complete, and the witness has testified, 
absolute authority over the district, and there is a maximum, 
not a minimum size of the Federal District. The Congress has 
used its complete authority over the Federal District to 
previously reduce the size of the Federal District by 30 
percent. Now, some argue that the state of Washington, DC. 
would be too small. We've heard that argument here, and does 
not have diverse industries or enough amenities.
    Ms. Schwartz, does the text of the Admissions Clause 
describe any characteristics of the new state, such as 
geographical or population size, industries, amenities, or 
anything of the kind?
    Ms. Schwartz. It does not.
    Ms. Norton. I will read the relevant part of the Admissions 
Clause, and I'm quoting: ``New states may be admitted by the 
Congress into this Union.''
    Now, it says nothing. Those are the words. It says nothing 
about characteristics of the new states.
    Let's turn to the assertion that the Admissions Clause 
requires Maryland to consent to the admission of the state of 
Washington, DC.
    Ms. Schwartz, does Maryland, which gave the land that 
constitutes today's District of Columbia to the Federal 
Government, own that land today?
    Ms. Schwartz. It does not.
    Ms. Norton. Does Maryland have any jurisdiction over the 
District of Columbia today?
    Ms. Schwartz. It does not.
    Ms. Norton. Isn't it true that Ohio came from lands 
partially ceded by Connecticut to the Federal Government from 
the Northwest Territory?
    Ms. Schwartz. I----
    Ms. Norton. And did Connecticut have to consent to the 
admission of Ohio?
    Ms. Norton. I have not looked at the specifics of where 
Ohio originated, but I do know that there were states that came 
from the Northwest Territory, and there was not a separate 
question about whether the states that had formerly ceded that 
territory would consent, again, when the new states were 
created.
    Ms. Norton. Thank you.
    I will read the text of the Admissions Clause. No new state 
shall be formed or erected within the jurisdiction of any other 
state, et cetera.
    The District Clause is not within the jurisdiction of 
Maryland, so Maryland's consent is not required to admit the 
state of Washington, DC, as some argue the 23rd Amendment, 
which gave the Federal District electoral votes, precludes 
admission of the state of Washington, DC. Mr. Smith said that.
    Does the text of the 23rd Amendment describe the 
geographical or population size of the Federal District?
    Ms. Schwartz. It does not expressly do so.
    Ms. Norton. The text only refers to, and I'll quote: ``The 
district constituting the seat of government.'' It says nothing 
about the geographical or population size of the District of 
Columbia. Those of us who believe that H.R. 51 is Constitution 
only need to do what I have just done, read the words written 
into the Constitution.
    I thank you, Madam Chair.
    Voice. May I respond to that?
    Chairwoman Maloney. The gentlelady yields back.
    The gentleman from Arizona, Mr. Gosar, is recognized for 
five minutes.
    Voice. May I respond to that?
    Chairwoman Maloney. Pardon me?
    Mr. Gosar. Thank you, Madam Chairwoman.
    Mayor Bowser, in what section is the District of Columbia 
mentioned in the Constitution specifically?
    Mayor Bowser. I'm sorry. Was that for me, Madam Chair?
    Mr. Gosar. Yes, Mayor Bowser.
    Mayor Bowser. What was your question again, sir?
    Mr. Gosar. In what section is the District of Columbia----
    Chairwoman Maloney. Turn your mic on.
    Mr. Gosar. Can you hear me?
    Mayor Bowser. Yes.
    Mr. Gosar. OK. In what section is the District of Columbia 
mentioned in the Constitution?
    Mayor Bowser. Are you referring to the District Clause, 
sir?
    Mr. Gosar. I'm asking, the District of Columbia, where is 
it mentioned in the Constitution?
    Mayor Bowser. The District Clause.
    Mr. Gosar. It is not mentioned. It is not mentioned. It 
does mention the Federal District, but it does not mention 
specifically the District of Columbia. But the Constitution--
and that's Article I, Section 8.
    In what context is the Federal District mentioned in 
Article I, Section 8?
    Mayor Bowser. I'm happy to go and refer to your references, 
but I'm not--I don't have the cites off the top of my head.
    Mr. Gosar. Well, it's to exercise exclusive legislation in 
all cases whatsoever over such district as may become the seat 
of the Government of the United States.
    What--that same section says the Congress will have the 
authority to purchase places for the erection of forts, 
magazines, arsenals, dockyards, and other needful buildings for 
the District. Your proposal makes the National Mall, the White 
House, and the Capitol complex the new district in the 
Constitution. Where are the forts going to be and where are the 
dockyards going to be?
    Mayor Bowser. The forts? There is a system of forts around 
the District of Columbia currently, as you know, and those 
forts remain. I do think that your question may be somewhat 
outdated, sir. And when we think about the threats to our 
Nation, we see it not in the form of people descending on the 
District where we need to be on high ground to defend. What 
we've seen, actually, in our most recent history, that our 
threats are domestic; that we have to be concerned about how 
the national intelligence apparatus can keep our Nation safe. I 
think what we've also seen is that----
    Mr. Gosar. Reclaiming my time. You're going beyond----
    Mayor Bowser.--the new state will be a supporter of the 
national security and not a----
    Mr. Gosar. You're going beyond our scope here, and if you'd 
like to get into that, I'd be happy to get into that. Because 
if you're bringing up insurrection, were there any weapons 
confiscated on the 6th?
    Mayor Bowser. Yes, sir, there were. And there were weapons 
confiscated leading up to the 6th.
    Mr. Gosar. No. That's not what we've heard.
    Mayor Bowser. And there was also--there were also an 
explosion--an incendiary device that was located very close to 
this Congress----
    Mr. Gosar. I think you made--I think you made my point.
    Mayor Bowser.--and where lawmakers were put in grave 
danger.
    Mr. Gosar. I think you made my point.
    Mayor Bowser. Yes.
    Mr. Gosar. Now, it sounds like the Constitution clearly 
contemplates the District to be an actual city, doesn't it? 
Were the Founding Fathers just wrong in wanting a separate 
district controlled by Congress?
    Mayor Bowser. Could you repeat that, sir?
    Mr. Gosar. Yes. It sounds like the Constitution clearly 
contemplates that the District be a separate city, doesn't it? 
Were the Founding Fathers just wrong in wanting a separate 
district controlled by Congress? Were they just wrong?
    Mayor Bowser. I think that the Founding Fathers recognized 
that they were stripping the people of the District of Columbia 
at the time, only White men at the time could vote, and that 
they recognized that that was an issue that was going to have 
to be dealt with, both for the representation in the national 
legislature and for self-government.
    Mr. Gosar. So, now, just going back to the size of the 
city. You said it's about 700,000. Do you think that the size 
of Paris at the time that we considered this district was taken 
into consideration for the design of the District? What was the 
size of Paris in 1801?
    Mayor Bowser. I'm not sure what the size of Paris was in 
1801.
    Mr. Gosar. It was about 630,000. So, I think they took that 
well into consideration.
    Can you tell me when the District came under congressional 
authority?
    Mayor Bowser. The District--1801 Organic Act, is that what 
you're referring to, when the residents of the District of 
Columbia were stricken of voting representation in the national 
legislature?
    Mr. Gosar. You're right. Yes.
    Mayor Bowser. Yes. 220 years ago.
    Mr. Gosar. Can you tell me--can you tell me from what 
states the district received its territory originally and when?
    Mayor Bowser. Congressman, I'm happy to go over a history 
lesson with you at the appropriate time. We, as you know, the 
states of Maryland and Virginia granted to the Federal 
Government lands that now comprise the District of Columbia.
    Mr. Gosar. One last question to Mr. Smith. In the fact of 
the retrocession, House made it illegal--passed a bill finding 
it illegal. Mr. Smith, do you actually hold that that argument 
you heard from the delegate, Ms. Norton Holmes, in regards to 
being owned by Maryland suffices?
    Mr. Smith. I think there are three points to make----
    Chairwoman Maloney. Put your mic on, please, Mr. Smith.
    Mr. Smith. Thank you.
    I think there are three points to make in response to that. 
The first is the Supreme Court has never ruled on whether that 
retrocession was constitutional. They--at the time they were 
asked to consider it, they said too much time had passed. So, 
certainly a timely challenge today would raise many of the same 
issues that that retrocession raised.
    Additionally, it was a much smaller area that was being 
retrocessed at the time, only about a third of the District. 
And, most importantly, Virginia consented to that retrocession. 
And so it only makes sense that Maryland would need to consent 
to a different use of the land today.
    Additionally, there's also the issue of the 23rd Amendment, 
which even if a specific size wasn't specifically--for the 
District wasn't contemplated under the District Clause, I think 
there's a very compelling argument that the 23rd Amendment, 
when adopted, certainly contemplated the District being a 
certain size with a significant population. And that's a view 
that Attorney General Robert Kennedy also shared.
    Mr. Gosar. I thank the gentlewoman.
    I yield back.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    The gentleman from Massachusetts, Mr. Lynch, is recognized 
for five minutes.
    Mr. Lynch. Thank you very much. Can you hear me?
    Chairwoman Maloney. Yes, we can.
    Mr. Lynch. OK. That's great.
    I think it's important to remember that the residents of 
the District of Columbia have been giving their blood and 
treasure to a country that still denies them voting 
representation in Congress and full self-government.
    As the chair has pointed out and Ms. Norton has pointed 
out, D.C. residents do pay Federal taxes, which contributes to 
fund our military operations. They register for Selective 
Service, they enlist in America's Armed Forces, and they 
bravely deploy abroad in defense of our Nation, yet they do not 
share in the full rights and privileges of American 
citizenship.
    D.C. residents have no vote in the Senate on confirmation 
of its military leadership, and until a recent act of Congress, 
the military was not even required to display the D.C. flag 
when it displayed state flags. Over the course of America's 
history, hundreds of thousands of D.C. residents have served in 
the military. Today, there are 30,000 living D.C. residents who 
are veterans.
    D.C. residents have fought in every single American war. 
D.C. has suffered more war casualties than many states. In 
World War I, nearly 26,000 District residents served and 635 
made the ultimate sacrifice, with D.C. suffering more 
casualties than 10 states. More than 89,000 D.C. residents 
served in World War II, which witnessed about 3,900 D.C. 
casualties and more, more casualties than four states. And, 
again, in the Vietnam war, D.C. suffered 243 casualties, more 
casualties than 10 states. Nearly 40 D.C. servicemembers have 
received the congressional Medal of Honor, our Nation's highest 
military award for bravery.
    Mr. Wingo, I want to thank you for your service and your 
testimony, and the testimony of all the witnesses today. Thank 
you for trying to help Congress do its work. Mr. Wingo, you're 
a native Washingtonian, you're also a graduate of the Naval 
Academy, a former Navy SEAL, and you served in both the Federal 
and legislative branches. I think you offer a very unique 
perspective, an important one.
    I want to ask you, as a veteran and a military professor, 
how do you reconcile the fact to people that we actually have, 
and have for a long time, we have residents of D.C. stepping 
up, joining the military, deploying overseas to fight for and 
defend the rights of foreign citizens to have basic rights that 
you are denied when you come back to your own Nation's capital? 
How do we reconcile that? Help me with that.
    Mr. Wingo. Congressman Lynch, I can't reconcile it. We 
should not have to sacrifice without representation. And I 
think that, as a veteran, I hear from so many other veterans 
that, as you say, we have honorably served and we've died in 
these wars. And, in fact, thank you for sharing those numbers. 
For the Vietnam war, 243 total deaths. It turns out, and this 
is a grim statistic, for Vermont, there were 100; for Wyoming, 
there were 119.
    So, the calculus of proportionality, it has been--we've 
honorably served. So, I cannot reconcile that we are denied our 
inalienable rights and we should not be.
    Thank you.
    Mr. Lynch. Thank you, sir. I think your testimony and your 
perspective are extremely important here, and it gets right to 
the crux of this question.
    And I want to thank Chairwoman Maloney for holding this 
hearing. I also want to thank Ms. Holmes Norton for her 
persistence and her resilience, and the fact that this bill has 
gotten this far and got this far in the previous Congress is 
largely due to her representation. So, I want to thank her for 
trying to right this injustice.
    And I yield back the balance of my time. Thank you.
    Chairwoman Maloney. The gentleman yields back.
    The gentlelady from North Carolina, Ms. Foxx, is now 
recognized.
    Ms. Foxx.
    Ms. Foxx. Thank you, Madam Chairman.
    My first question is for Mayor Bowser. Where would you 
place the ideological makeup of D.C. relative to other cities 
in the country? Is it slightly Democratic, very Democratic, 
very Republican?
    Mayor Bowser. It's more than slightly Democratic, 
Congresswoman.
    Ms. Foxx. Thank you. Mayor Bowser, if Democrats eliminated 
Washington, DC. and instead created a state of Washington, 
Douglass Commonwealth, what political affiliation do you 
anticipate the two new Senators would be?
    Mayor Bowser. I don't know. That will be up to the people 
of the District of Columbia.
    Ms. Foxx. OK. But with a very Democratic population, you 
can't anticipate what that would be?
    Mayor Bowser. I can anticipate that there will be a lot of 
very capable Washingtonians running to elect their fellow 
citizens.
    Ms. Foxx. Well, thank you. Thank you. Let's assume that 
those would be Democrats who would be elected. So, do you think 
that they would be moderate Democrats or liberal Democrats?
    Mayor Bowser. I think that the people of Washington, DC. 
have elected moderate Democrats and very progressive Democrats.
    Ms. Foxx. Thank you very much.
    Mayor Bowser. And they've also elected Independents and 
Republicans.
    Ms. Foxx. Why thank you, Mayor Bowser.
    Madam Chairman, from what I'm hearing, this Democrat-led 
Congress is attempting to use a razor-thin majority that it has 
to entrench itself in power by passing measures such as H.R. 1 
to nationalize our elections, then moving to add two additional 
Democrats to the Senate by attempting to make D.C. a state. 
D.C. is a pawn being used by congressional Democrats to gain 
power, all without regard to the constitutional and practical 
issues that making the district a state presents.
    The opinions being offered here today by the witnesses that 
the Democrats have brought show me that there is an attitude of 
little respect for the Constitution, and how people have 
convoluted things that have happened in the past to negate the 
clear language of the Constitution is truly a 1984 experience 
to me.
    Mr. Smith, are there alternatives to D.C. Statehood that 
would provide representation to D.C. residents in Congress 
without violating the Constitution?
    Mr. Smith. There are alternatives--thank you. There are 
alternatives, Congresswoman, and they've certainly been 
explored in the past. There was previously a constitutional 
amendment in the 1970's that would have treated the District as 
though it were a state for voting purposes and representation 
in Congress, and certainly those alternatives would be 
available today as well.
    Ms. Foxx. Well, thank you. Was district representation in 
Congress for the Federal District ever contemplated by any of 
the Founding Fathers?
    Mr. Smith. Well, the time the District was established, it 
was not. It's a clear decision the Founding Fathers made. It 
was controversial. At the time, it was immediately debated. The 
decision was clear, and some such as James Madison thought the 
tradeoff of living close to the seat of the Federal Government 
would be sufficient compensation. And to quote the Carter 
Justice Department, if that balance has changed today, the 
appropriate way to deal with that change is through a 
constitutional amendment.
    Ms. Foxx. Well, I completely agree with you. If the 
District of Columbia wishes to become a state, I believe that 
we must pass a constitutional amendment. I swear to uphold the 
Constitution every time that I am sworn in and I think about it 
every day that I am on the floor. Thank you very much.
    Thank you Madam Chairman. I yield back.
    Chairwoman Maloney. The gentleman from Virginia, Mr. 
Connolly, is now recognized for five minutes.
    Mr. Connolly. Thank you, Madam Chairwoman. And thank you, 
Eleanor Holmes Norton for your implacable support for righting 
a wrong.
    This issue today is really about Democratic unfinished 
business. It's not--it's not really about so much of what has 
been discussed. My friend Jody Hice criticizes D.C. as not 
being viable because it doesn't have car dealerships--not true, 
by the way; it does--and it doesn't have a landfill. So, now 
we're going to have a new test of statehood: Do you have a 
landfill? The absurdity of the arguments being propounded on 
the other side of the aisle are all subterfuge.
    And I'm grateful for our last questioner on the Republican 
side, my friend, Ms. Foxx, for actually letting the cat out of 
the bag. This is about race and partisanship and affiliation. 
She asked a series of questions of the Mayor of the District of 
Columbia that I think are profoundly inappropriate. To 
characterize how people might vote were they granted the right 
of statehood to have two Senators and what kinds of particular 
philosophical attitudes those two Senators might have.
    We have never made partisanship a condition of statehood. 
And I might add, the danger of that assumption is that things 
change. In 1959, when Alaska and Hawaii were paired in 
statehood, creating the 49th and 50th state, Alaska was assumed 
to be a Democratic state and Hawaii was assumed to be a 
Republican state. And, indeed, initially, that's how they 
performed.
    Today, nobody would think that way. Hawaii is clearly a 
strong Democratic state and Alaska is clearly a strong 
Republican state. Assumptions are dangerous. Behavior changes. 
We can't make decisions on that basis.
    Ms. Schwartz, I want to make sure I understood your answer 
to Ms. Norton. The Admissions Clause in the Constitution grants 
near absolute power to the Congress in terms of admitting a new 
state into the Union. Is that not correct?
    Ms. Schwartz. That is correct.
    Mr. Connolly. Are there conditions? Is there conditionality 
in the Admissions Clause?
    Ms. Schwartz. Yes. The conditions are that no new state can 
be formed within the jurisdiction of another state, nor by the 
joining two states together or parts of states together without 
the consent of the legislators of those states.
    Mr. Connolly. Right. So, Mr. Comer's question to somebody 
about, how about we split up California, would actually be in 
violation of the very provision, without the consent of 
Californians, you decided?
    Ms. Schwartz. Yes. California's consent would be required.
    Mr. Connolly. And Congress--somebody asked you earlier 
about Ohio. The Northwest Territory at the time, in fact, was 
created by the cession, the voluntary cession of a number of 
states, including my own, Virginia, out of which Ohio was 
fashioned. Do you recall that?
    Ms. Schwartz. Yes.
    Mr. Connolly. And when Texas was admitted, which was very 
controversial--took a while, but when Texas was finally 
admitted to the Union, Congress insisted on boundary changes 
that actually added territory to what is now New Mexico and 
took it away from Texas. Do you recall that?
    Ms. Schwartz. I am not familiar with the specifics of the 
boundaries of Texas at the time of statehood, unfortunately.
    Mr. Connolly. Trust me on that. In other words, Congress 
exercised broad power, not only to admit a state, but to decide 
on the physical configuration of that state.
    You know, let me just say, Madam Chairwoman, I grieve at 
what's happened to the party of Lincoln, the party of 
emancipation, the party of 13th, 14th, and 15th Amendments. You 
have to look at what we're discussing in a context, and the 
context on the other side of the aisle, tragically, is about 
voter suppression. 200 bills have been introduced in 43 states 
since the election last November to restrict, repress, suppress 
the vote, the ability of people to vote early and with 
facility.
    In fact, in Mr. Hice's home state of Georgia, we have seen 
some of the most repugnant bills since Jim Crow to do just 
that, restrict the vote. And I think we have to be looking at 
this issue of whether we continue to restrict the vote in D.C. 
in that context. We're either about empowerment and winning 
elections fairly and squarely by competing or we're not. We are 
either the world's greatest democracy or we cherry pick who 
enjoys the benefits and blessings of that democracy.
    This is a wrong based in race, based in very sorted history 
that is long overdue to be righted. Let's do the right thing. 
Let's stop arguing about false history, let's stop the 
subterfuge, and let's empower the 712,000 fellow Americans to 
exercise their American right to make their choice any way they 
wish in a free election that empowers them as a state.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Georgia, Mr. Hice, is now recognized for 
five minutes.
    Mr. Hice. I thank the Chairwoman. And I thank Mr. Connolly, 
my friend from Virginia, for just letting the cat out of the 
bag himself. He stated very clearly that what this is all about 
is unfinished Democratic business. That's exactly what this is 
all about, the Democratic Party attempting a political power 
grab of obtaining more Senators. That's entirely what this is 
all about, and my comments that he referenced have nothing to 
do with a new test for admission. They're based on reality.
    If D.C. became a state, it'd be the only state that has no 
airport. If there's a car dealership in D.C., I apologize for 
being wrong, I have no idea where it is, but it'd be a state 
without a capital city. It would not have a landfill, and we 
could find a ton of other issues that are just matters of fact 
that would be absent here.
    Mayor Bowser, let me ask you, is D.C. Statehood a 
bipartisan issue, in your opinion?
    Please turn your mic on.
    Mayor Bowser. I'm sorry, Congressman. My response was it 
should be. We never----
    Mr. Hice. That's not the question. That's a good answer, 
but that's not the question.
    Mayor Bowser. OK.
    Mr. Hice. Would you consider it a bipartisan issue?
    Mayor Bowser. Congressman, it is a bipartisan issue and 
here's why.
    Mr. Hice. What Republicans do you know that support it?
    Mayor Bowser. Oh, I'm quite sure there are Republicans who 
support it.
    Mr. Hice. That's not my question, again. Let me go to Mr. 
Smith.
    Mr. Smith, let me ask you, in the past when other states 
have been admitted, this whole concern that many have that this 
is about Democratic Senators, in the past when states have been 
admitted, isn't it true that most of the time, if not all the 
time, they were admitted in pairs?
    Mr. Smith. That's certainly been the practice for the 20th 
century. Alaska and Hawaii came in as a pair. Also, Arizona and 
New Mexico came in as a pair as well. And even prior to that, 
states would often come in in pairs or groupings in order to 
balance partisan considerations.
    Mr. Hice. How is that balanced? Describe the balance.
    Mr. Smith. I'm sorry. I couldn't hear your question, 
Congressman.
    Mr. Hice. Mr. Smith, when you say to balance, what do you 
mean?
    Mr. Smith. That political considerations have always been a 
part of admitting new states to our Union. And so when the 
states have been admitted in pairs, it has traditionally been, 
in part, to balance those political considerations. And so 
there would typically be a pairing of a presumed state of one 
party with a presumed state of another party.
    Mr. Hice. So, there was an attempt in the past, then, to 
avoid a potential party getting the upper hand on another 
party. And so when we admitted states, we did it in pairs with 
both sides coming in at the same time. Is that what you're 
saying?
    Mr. Smith. Correct, but I think it's important to note as 
well, none of those other states faced the significant 
constitutional issues that the District faces in coming in as a 
state by simple legislation.
    Mr. Hice. Yes, I get that.
    Mayor Bowser, are you aware of any movement afoot that 
would create a state to counterbalance D.C.?
    Mayor Bowser. Congressman, we don't accept the notion that 
our enfranchisement is dependent on anybody else or the 
readiness----
    Mr. Hice. OK. Please answer my question. I'm not interested 
in what your assumptions are. I ask you, are you aware of any 
other movement afoot for another state to be admitted that 
would be a counter to D.C.?
    Mayor Bowser. I'm not sure if this Congress has any other 
bills like H.R. 51 and the D.C. Admissions Act. We are, of 
course, familiar with----
    Mr. Hice. OK. Well, I can tell you there's not.
    Mayor Bowser. We can----
    Mr. Hice. There's not.
    Let me ask you this. If there was another----
    Mayor Bowser. Excuse me, Congressman. I want to completely 
answer your question. I----
    Mr. Hice. You did. You completely answered my question, so 
please don't continue.
    If there was another movement to admit another state, would 
you be in favor of that? If there was a Union pair, would you 
be in favor of it?
    Mayor Bowser. I can only answer your question this way, 
Congressman. The people of Washington, DC, have voted to 
endorse statehood. We have approved a constitution. We have 
approved our state boundaries. Our Congresswoman has introduced 
a bill that has a historic number of sponsors. And this 
committee should advance that bill to approval in the House of 
Representatives.
    Mr. Hice. Thank you, Mayor Bowser, but that's, again, a 
great question--all due respect, a great answer to a question 
that I did not ask.
    D.C. residents have been voting in Presidential elections 
since 1961. There have been, what, at least 15 Presidential 
elections since that time until now. The most that any 
Republican President has ever received over that period of time 
is 20 percent coming out of Washington, DC, And that 20 percent 
was when the Republican President won with 520 electoral votes, 
and yet D.C., the most ever, voted Republican 20 percent in 
that election, clearly out of step with America.
    And that, combined with the fact that our history as a 
Nation admits states that are paired together so it does not 
throw off balance the political structure of our country.
    Mr. Smith----
    Mayor Bowser. Well, Congressman----
    Mr. Hice [continuing]. Let me just finish with you. Can you 
briefly explain, Mr. Smith, why adding a state to the Union for 
the sole purpose of gaining political advantage, as seems to be 
the case here, is not the intention of our structure and why it 
is potentially dangerous?
    Chairwoman Maloney. This is--the gentleman's time has 
expired. The gentlelady, the Honorable Bowser, can answer the 
question.
    Mayor Bowser. Thank you----
    Mr. Hice. What about the one I addressed the question to, 
Madam Chair?
    Chairwoman Maloney. Oh, it was to Mr. Smith? It was to Mr. 
Smith. OK.
    Mr. Smith. Thank you.
    Chairwoman Maloney. You can answer the question.
    Mr. Smith. Yes, Congressman, I think admitting the District 
of Columbia in this way sets a dangerous precedent because of 
the many constitutional issues that are unique to the District.
    It is certain that years of litigation would follow this 
decision. Potentially every act of the new state and of the 
Federal Government during that time period before these issues 
are resolved could be called into question. And, certainly, if 
the 23rd Amendment issue is not resolved before a future 
Presidential election, even that Presidential election could 
itself be called into question.
    Chairwoman Maloney. The gentleman from Maryland, Mr. 
Raskin, is now recognized for five minutes.
    Mr. Raskin. Thank you, Madam Chair. Can you hear me now? 
Madam Chair, can you hear me?
    Chairwoman Maloney. Yes, we can.
    Mr. Raskin. OK. Thank you. Thank you, Madam Chair, for 
calling the hearing.
    Thank you, Ms. Norton, for your hard work on this.
    I want to thank Mr. Wingo and the tens of thousands of 
veterans in Washington, DC, who've served the country.
    I also want to thank all of the 712,000 American citizens 
who you represent, Mayor Bowser and Chairman Mendelson, for 
having a very strong and legitimate grievance about being 
disenfranchised and not represented in Congress and yet never 
attacked the U.S. Congress, broke our windows, stormed our 
chambers, or caused the deaths or injuries of more than 100 of 
our police officers. So, I want to thank you for following the 
nonviolent and constitutional path to political equality in 
America, which is set forth in the Constitution itself.
    Under Article IV of the Constitution, we have the power to 
admit new states. We started with just 13 states, and we've 
admitted 37 new states, which means that nearly three-quarters 
of the states have been admitted by Congress, none of them by 
constitutional amendment. And no statehood admission has ever 
been invalidated by any court in the land, including the 
Supreme Court of the United States.
    And it is simply false to assert that there were not 
constitutional objections made to numerous state admissions. It 
was said Texas could not be admitted because it used to be its 
own country and there was no provision for admitting a foreign 
country as a state. It was said that Utah and Arizona were too 
Mormon or too Catholic, and New Mexico was too Catholic; 
therefore, it was theocratic. Kentucky used to be part of 
Virginia. West Virginia used to be part of Virginia. Tennessee 
used to be part of Virginia.
    I mean, come on. Like, learn about American history and you 
will understand that all of the fraudulent arguments being made 
against the admission of Washington, DC, as a new state have 
been made against almost every state in the past. They were too 
big; they were too small. Everyone knew you couldn't admit 
Hawaii and Alaska because they weren't contiguous to the Union, 
right? Like, this is what the history is.
    Now, the argument that they are trying to make seriously is 
that somehow Article I, Section 8, Clause 17, the District 
Clause, should be read as a kind of straitjacket on Congress 
and a straitjacket on hundreds of thousands of taxpaying, 
draftable citizens who live there.
    But it's already been established that Congress can modify 
the boundaries of the Federal District. When the question was 
asked before, is the District of Columbia--is the map in the 
Constitution, the answer is no. In fact, the Federal District 
could be relocated to a different part of the country. It's up 
to Congress to decide. It is a political question for Congress 
to decide in all cases whatsoever, including the modification, 
the shrinking of the District or the enlargement of the 
District within the 10-mile square maximum. But there is no 
minimum, there is no floor.
    So, could Congress decide, for the purposes of 
enfranchising a new state and guaranteeing political equality, 
to cede the lands to a new state? Of course it could. In 1846, 
it shrunk the boundaries of the District to retrocede 
Alexandria, Arlington, and Fairfax County back to Virginia 
because the slave masters were rightfully afraid that Congress 
was about to abolish the slave traffic in the District of 
Columbia.
    Which, actually, was the main political agenda of a great 
Republican Member of the House of Representatives named Abraham 
Lincoln, who spent his time in his one term in the House trying 
to abolish slavery in the District of Columbia. That is a 
Republican we should all look up to for his determination to 
bring justice to people in Washington, DC.
    So, a couple of other stray points here.
    You know, it was said at a couple of points there's no car 
dealership in the District of Columbia. Of course, that's not a 
constitutional restriction. It turns out there is a car 
dealership in the District of Columbia. At that point, now, do 
all the Republicans say, ``OK, at this point, we agree that 
people in D.C. should enjoy equal political rights''? Of course 
not, because they are simply trying to gin up whatever 
arguments they can think of.
    Someone said there's no bowling alley in the District of 
Columbia. These are frivolous arguments. This is--you know, 
this is just flotsam and jetsam floating around, reflecting the 
fact that people are actually--while invoking partisanship as a 
problem, you guys are creating partisanship as the problem. And 
I know partisanship is in the eye of the beholder, but you are 
the ones constantly trying to create a political and 
ideological test for admission to the Union.
    It is simply, I think, unconstitutional and un-American to 
be asking how people are going to vote once they're admitted. 
The question is, are these taxpaying, draftable American 
citizens who are subject to all the laws of the country who 
deserve equal rights? And of course they are. It's way too late 
in the day to be manufacturing these kinds of phony arguments 
to keep other people down. It's wrong.
    And let me just say finally, there is another potential 
state that may be seeking admission to the Union, Puerto Rico. 
And that has been in the Republican platform for many decades. 
So, where are my friends there? Are they arguing for Puerto 
Rico?
    You want a deal? You want to trade? You want to bring in 
two states together, the way Kansas and Nebraska came in, or 
Hawaii and Alaska? Why aren't you fighting for Puerto Rican 
admission? It's been in the Republican Party's national 
platform for several decades. So, let's see you step up to the 
plate there and say, that's the deal.
    Some people want to look at it as a political deal. That's 
not the way the Mayor sees it, and I understand exactly why. 
But if there are people in Congress who look at it that way, 
then stand up for what the Republican Party has said. Say you 
are going to support statehood for Puerto Rico and let's admit 
Washington, DC, and Puerto Rico together. Let's get the engines 
of democratic progress moving again in our country.
    Thank you. I yield back, Madam Chair.
    Chairwoman Maloney. Thank you.
    The gentleman yields back.
    The gentleman from Wisconsin, Mr. Grothman, is recognized 
for five minutes.
    Mr. Grothman. Thank you for having me.
    I've always felt the answer here is relatively obvious: 
Because Washington is a city, not a state, and that's why, when 
our forefathers created it, they didn't make it a state.
    I have a good friend, and he talks about, you know, what it 
takes to build a good economy, and he says we either have to 
manufacture it, we have to grow it, or we have to mine it. Of 
course, you can milk it too. I guess what he's saying is, 
wealth is created by manufacturing, agriculture, or natural 
minerals. And those are things that I think every state has in 
some degree.
    I'd like to ask anyone up there if they have an idea as far 
as the number of manufacturing jobs in Washington, DC. I mean, 
usually with a big city--Milwaukee, Chicago--it's substantial. 
Talk a little bit about the agriculture in Washington, DC, and 
talk about the mining or drilling in Washington, DC.--all three 
of which have to be very tiny compared to that what we get in a 
normal state.
    So, I'll ask, oh, I guess anybody who wants to take a stab 
at that. Because we have people talking about the work force of 
Washington, DC.
    Mayor Bowser. Thank you, Congressman. This is Mayor Bowser 
speaking.
    And let me just say, you referred to us as just a city and 
not really a state, when the truth is we function as a city and 
a county and a state right now. So, in fact, what we are is 
special. We're different. And we're different in a lot of good 
ways, and the way that we're different that is un-American is 
that we don't have two Senators.
    You say, what does it take to build----
    Mr. Grothman. Well, I only have five minutes. I'm sorry, I 
only have five minutes, and I wish you'd----
    Mayor Bowser. Well, let me answer your question about our 
good economy. We have a great economy, even----
    Mr. Grothman. No, I----
    Mayor Bowser.--in the face of COVID----
    Mr. Grothman. Your economy is based on government, and your 
economy is based on tourism, which is a different thing--in 
other words, retail--which is a different thing other than 
manufacturing, agriculture, or mining or drilling. And there 
might be some little manufacturing I'm not aware of, but, 
compared to even other cities--you know, a Chicago, a 
Milwaukee, a Detroit--I have a feeling----
    Mayor Bowser. Well, there may be states who rely on 
manufacturing, and I would argue that their economies aren't as 
good as ours.
    And you heard our chief financial officer already tell you 
that the makeup of our jobs is, in fact, 25 percent Federal 
Government----
    Mr. Grothman. You're not answering my question, and I only 
have five minutes. Could you talk--manufacturing is so 
important for creating wealth of the country, in a way that 
retail or tourism is not. Can you tell me about the 
manufacturing or agriculture or mining in your district?
    I think, normally, when a congressman or, even more, a 
senator weighs the bills that are out there, they have to 
address how they will affect manufacturing, agriculture, and 
mining, which is where the wealth of the country comes from. 
And I'm not aware----
    Mayor Bowser. Sure. Well, let me----
    Mr. Grothman [continuing]. Of virtually any of that in your 
city.
    Mayor Bowser. We do not have any mines, Congressman.
    Mr. Grothman. OK.
    Mayor Bowser. But we are investing in other energy sources. 
For example, we believe that a way to create jobs and employ 
Washingtonians is to invest in solar energy, for example.
    Mr. Grothman. OK.
    Mayor Bowser. We are also, Congressman----
    Mr. Grothman. OK. I----
    Mayor Bowser.--very focused on how we attract--I'm trying 
to answer your question, sir. You asked me about manufacturing.
    Mr. Grothman. OK.
    Mayor Bowser. And we're very intent on how we attract 
businesses who are investing in creating solar panels and 
employing D.C. residents.
    Further, our hospitality sector--and I ask you not to not 
take it----
    Mr. Grothman. OK.
    Mayor Bowser.--very seriously, because it employs people, 
it----
    Mr. Grothman. I'm sorry. You're dodging the question, so 
let me ask somebody else a question.
    Mayor Bowser.--contribute--I have to finish. It----
    Mr. Comer. Madam Chair----
    Mayor Bowser.--helps us contribute----
    Chairwoman Maloney. The time belongs----
    Mr. Comer. Madam Chair----
    Chairwoman Maloney.--to the gentleman from----
    Mr. Comer [continuing]. Let the questioner----
    Mr. Grothman. I'd like to go on to another question because 
she won't answer these, and I think it's because there really 
is none.
    Mayor Bowser.--for me to answer your question----
    Mr. Grothman. A general question as to----
    Ms. Norton. Madam Chair--Madam Chair, the members on the 
other side have repeatedly kept our witnesses, especially the 
Mayor of the District of Columbia, from fully answering 
questions, even though you have been----
    Mr. Comer. Madam Chair, your side does that every time. 
Debbie Wasserman Schultz----
    Chairwoman Maloney. Regular order. Regular order. The time 
belongs to the gentleman----
    Mr. Comer. The five minutes----
    Chairwoman Maloney. Regular order.
    Mr. Comer [continuing]. Belong to Mr. Grothman.
    Ms. Norton. She has been generous in----
    Chairwoman Maloney. The time belongs----
    Ms. Norton [continuing]. Allowing time. So, she has allowed 
time for the other side----
    Mr. Comer. You all----
    Ms. Norton [continuing]. To ask their questions.
    Mr. Comer [continuing]. Do this every session. You have so 
much----
    Chairwoman Maloney. Regular order. Regular order.
    Mr. Comer [continuing]. Memory on that side.
    Chairwoman Maloney. The time belongs to the gentleman from 
Wisconsin to ask his question. And we will recognize the 
gentlelady from the District of Columbia, Mayor Bowser, to give 
an answer that she feels that she--at the end of his 
questioning.
    OK. Congressman, you're recognized. The time is yours right 
now.
    Mr. Grothman. OK.
    I guess the point I'm making is, the electorate in 
Washington is very different from other electorates, and, as a 
result, they make strange decisions.
    The District of Columbia has the second-highest per-pupil 
spending in the United States, at over $22,000 a pupil, 
compared to around $15,000 for Maryland and $12,000 for 
Virginia. Nevertheless, the District of Columbia ranks last in 
the country in fourth-and eight-grade reading assessments and 
worst in the Nation in writing assessments.
    This concerns me, in that, insofar as they right now have 
control of certain things, on education you could arguably say, 
given the cost and the results, they're the worst in the 
country.
    And I wondered if somebody would care to comment on, given 
it's such a wealthy district in the first place, largely 
because the seat of government is there, what conclusions we 
can draw, in that we have the second-highest-spending district 
state in the country, if it were a state, and arguably the 
worst test scores in the country.
    Mayor Bowser. Well, I would disagree with that assessment, 
Congressman. I don't know what you're pointing to, but if you 
look at what is frequently called the ``Nation's Report Card,'' 
also known as the NAEP scores, it has shown for the level 
several years that the District of Columbia is among the 
fastest improving urban school districts in the country.
    We--and I know I speak for Chairman Mendelson when I say 
this--regard our investments in education as our top priority 
in Washington, DC.
    Chairwoman Maloney. OK. The gentleman's time has expired.
    The gentleman from Maryland, Mr. Mfume, you are now 
recognized for five minutes.
    Mr. Mfume. Can you hear me OK?
    Chairwoman Maloney. We can hear you.
    Mr. Mfume. OK. Then I won't proceed
    [inaudible] still showing, so I didn't know.
    Chairwoman Maloney. We can hear you. We can--try to unmute 
yourself.
    Mr. Mfume. Can you come back to me, Madam Chair?
    Chairwoman Maloney. Yes. You are recognized.
    Mr. Mfume. Every time I----
    Chairwoman Maloney. OK. All right. We will come back to 
you. There's a technical problem.
    OK. The gentleman from Georgia, Mr. Johnson, you are now 
recognized for five minutes.
    Mr. Johnson. I thank the gentlelady for holding this 
historic hearing today.
    And I want to commend Congresswoman Eleanor Holmes Norton 
the Great for the Herculean work that she has done to get us to 
this moment. The District of Columbia has a fierce advocate in 
Congress who will never stop fighting for their representation, 
and I believe that there has been no better champion for 
democracy to be afforded to D.C. residents than my 
distinguished colleague Mrs. Norton.
    I'm a proud Washingtonian. I'm a proud Washington, DC, 
native. I was born at Freedmen's Hospital. I attended the D.C. 
school system, which prepared me for college, law school, and 
adulthood. And I'm honored to have been elected to return to 
Washington, DC, to represent the citizens of Georgia's Fourth 
congressional District.
    And it's not lost upon me that I was once one of the 
citizens of D.C. who have been denied the basic and fundamental 
right to participate in American democracy like the people I 
represent in Georgia. And that's not fair. It's not right. It's 
anti-democratic. And it's past time for the people of 
Washington, DC, to be afforded equal rights, to be represented 
by fully empowered legislators in Congress.
    The people of D.C. pay taxes, so they deserve equal 
representation. ``No taxation without representation'' is more 
than a political slogan for the people of Washington, DC.; it 
is the cruel reality of their citizenship.
    Mr. Smith, you are a well-studied lawyer, and you and other 
opponents of D.C. Statehood argue that D.C. Statehood requires 
a constitutional amendment and cannot be accomplished by simple 
legislation like H.R. 51. Isn't that correct?
    Mr. Smith. That is correct, Congressman.
    Mr. Johnson. And, Attorney Smith, having thoroughly studied 
the issue, can you cite a single case where the Supreme Court 
has held or even suggested in dicta that Congress does not have 
the authority to admit new states by simple legislation?
    Mr. Smith. Respectfully, Congressman, this issue is unique 
because the District of Columbia----
    Mr. Johnson. Well, can you cite me a single case, Attorney 
Smith, where the Supreme Court has ruled that Congress does not 
have the authority to admit new states by simple legislation?
    Mr. Smith. No, because no other state owes its very 
existence to a separate provision of the Constitution like the 
District of Columbia does.
    Mr. Johnson. Well, let me ask you this, Mr. Smith. How many 
new states have been admitted to the Union by way of a 
constitutional amendment?
    Can you answer that question?
    Mr. Smith, can you answer that question?
    Ms. Schwartz, can you answer the question?
    Ms. Schwartz. Yes. Your question was, how many other states 
have been admitted by constitutional amendment?
    Mr. Johnson. Yes, ma'am.
    Ms. Schwartz. The answer is none.
    Mr. Johnson. And how many facts have been--oh, excuse me--
how many states have been admitted by simple legislation?
    Ms. Schwartz. Thirty-seven.
    Mr. Johnson. And isn't it a fact, Ms. Schwartz, that H.R. 
51 follows the more-than-200-year precedent our Nation has 
followed in admitting new states?
    Ms. Schwartz. I have to say that, although it does follow 
precedent in terms of being simple legislation, it is true that 
it would also be the first state to be formed out of the land 
set aside for the Federal District.
    Mr. Johnson. Well, let's talk about that a little bit. You 
and--many--or some--there are some who argue that Maryland's 
consent would be necessary for the admission of D.C. because 
the new state would consist of land ceded by Maryland to the 
Federal Government to establish the Federal District.
    And the argument is that this Maryland statute that ceded 
land requires that Maryland give its consent--it still 
requires, even though the statute that ceded the land has no 
reversionary clause and it states that the land is, quote, 
``forever ceded and relinquished to Congress and Government of 
the United States, in full and absolute right.''
    Ms. Schwartz, what is your response to the argument that 
Maryland's consent is required before Congress can admit 
Washington, DC, as a new state?
    Ms. Schwartz. So, that--as you say, the cession of land 
from Maryland to the Federal Government does not contain an 
explicit reversionary interest or a provision saying that if it 
ever fails to become the seat of government that it would 
automatically go back to Maryland. There's no explicit text 
addressing that.
    It does, however, provide that the cession is for the seat 
of the Federal Government. So, the argument comes from, if the 
Federal Government is no longer using it for the purpose for 
which it was ceded, that it would need to seek Maryland's 
permission.
    I don't have a view on that because it's a novel question 
and we don't have guidance from the judiciary about how they 
would view that argument.
    Mr. Johnson. So, that's just an argument that some would 
make but it would have to be decided by the courts.
    But you must recognize the fact that, when the statute was 
passed in Maryland that ceded the land, it had no reversionary 
clause. Is that correct?
    Ms. Schwartz. That is correct. There's no----
    Mr. Johnson. And it stated----
    Ms. Schwartz [continuing]. Explicit reversionary clause.
    Mr. Johnson. And it stated in its terms that the land is, 
quote, ``forever ceded and relinquished to Congress and the 
Government of the United States, in full and absolute right,'' 
end quote.
    That would support the argument that the land was ceded 
without any interest, reversionary or otherwise. It's a very 
strong argument. Would you not admit that?
    Ms. Schwartz. That is the language that would be cited in 
support of the argument that there was no reversionary 
interest.
    Mr. Johnson. And, I mean, it means what it says and it says 
what it means. Isn't that correct?
    Ms. Schwartz. It does say what it says, sir.
    Mr. Johnson. And it means what it says.
    Is Mr. Smith back on the line yet? Those were some tough 
questions I was asking, and he went out as soon as----
    Mr. Smith. I am, Congressman.
    Mr. Johnson. Sir?
    Mr. Smith. I am back on the line, Congressman.
    Mr. Johnson. OK. Well--so you can't cite to us a single 
case where the Court has ruled--the Supreme Court has ruled 
that a state must be created by way of a constitutional 
amendment, correct?
    Mr. Smith. No, Congressman, because no other state has a 
unique status or owes its very creation to a separate 
constitutional provision like the District of Columbia does.
    Mr. Johnson. Well, what constitutional provision would 
prohibit the Congress from admitting Washington, DC, as a 
state?
    Mr. Smith. Well, certainly the biggest impediment is the 
23rd Amendment, Congressman. And Attorney General Robert 
Kennedy----
    Mr. Johnson. Well, in the 23rd Amendment--the 23rd 
Amendment has to do with electoral college votes, correct?
    Mr. Smith. It does, but Attorney General Robert----
    Mr. Johnson. Well, what does that have to do with--what 
does that have to do with admission of Washington, DC, as a 
state to this Union----
    Mr. Smith. Respectfully----
    Mr. Johnson [continuing]. And Congress's ability to pass 
legislation just like it has done in 37 other instances? What 
factors would distinguish Washington, DC, from the other 37 
instances where Congress has passed legislation to admit those 
37 states as states into the Union?
    Mr. Smith. Well, respectfully, Congressman, if I may finish 
my answer, I'm happy to answer your question.
    Again, the first is that no other state was created as a 
result of Article I, Section 8, Clause 17, the District Clause.
    Then again, the 23rd Amendment also certainly envisioned a 
district of a specific size with a significant population. And 
Attorney General Robert Kennedy, when delivering his opinion to 
Congress, said, quote, ``A persuasive argument can be made that 
the adoption of the 23rd Amendment has given constitutional 
status to the existence of a federally owned district, 
constituting the seat of government of the United States, 
having a substantial area and population, so that a 
constitutional''----
    Mr. Johnson. Well, I'm going to interrupt you there, sir. 
I'm going to interrupt you there, because that is simply not a 
persuasive argument against the ability of Congress to propound 
and pass legislation that would admit Washington, DC, as a 
state.
    You're talking about the opinion of others. And, of course, 
you have to respect the contrary opinions of others who happen 
to be among those who have propounded this legislation in the 
form of H.R. 51 that we stand ready to pass in Congress 
shortly. I mean, so two sides----
    Chairwoman Maloney. The gentleman's time has expired, but--
--
    Mr. Johnson [continuing]. Two sides of the coin.
    Chairwoman Maloney.--may answer the question.
    Mr. Johnson. Thank you. I yield back.
    Mr. Smith. Thank you, Congresswoman Maloney.
    Again, respectfully, no other state is in the unique 
position of the District of Columbia or owes its existence to a 
separate constitutional provision.
    And as to your earlier point, Congressman, about Maryland 
and the land that it granted to the District, it explicitly 
said it was for the purpose of--to be used as the seat of 
government. And certainly no one would have contemplated that 
Congress could have immediately turned around and used the land 
for a different purpose or created a new state. And so what 
Congress could not immediately have done it cannot do today 
simply with the passage of time.
    Chairwoman Maloney. The gentleman's time has expired.
    The gentleman from Louisiana, Mr. Higgins, is recognized 
with additional time. Because of the technical difficulties, we 
gave Mr. Johnson extra time, so, Mr. Higgins, you are also 
entitled to extra time.
    Mr. Higgins, you are now recognized.
    Mr. Higgins. That's very kind of you, Madam Chair. I 
appreciate you holding this hearing.
    My, goodness gracious. My fellow citizens watching right 
now, let me help to clarify this, and for my respected 
colleagues on both sides of the aisle but especially my friends 
across the aisle in the Democratic Party.
    D.C. is unique because it was expected to be unique. It was 
envisioned to be forever unique. It's built upon land ceded by 
sovereign states at the exact location chosen by President 
George Washington.
    James Madison articulated in Federalist 43 that if a 
capital city was situated within a state, the Federal 
Government would be subject to undue influence of the host 
state. The Founders wanted the capital separate from any state.
    Additionally, the original tenor of the Founders was clear: 
The Federal District was intended to not simply be the seat of 
government for the Republic, but expected to be a thriving 
Federal city, separate from the control of any single state.
    Article IV, Section 3: New states may be admitted by the 
Congress into this Union, but no new states shall be formed or 
erected within the jurisdiction of any other state, nor any 
state be formed by the junction of two or more states or parts 
of the states without the consents of legislatures of the 
states concerned as well as the legislation by Congress.
    In the case of D.C. Statehood, my colleagues across the 
aisle, respectfully, you just can't get past the uniqueness of 
D.C. and the legal and constitutional debate, legitimate 
debate, surrounding D.C. Statehood.
    My friend and colleague Representative Raskin compared it 
to ``Let's Make a Deal'' with Puerto Rico and D.C. Statehood. 
Respectfully, good sir, that's not a deal. We're not looking 
for a deal. We're only trying to follow the Constitution and 
the law. That's the bottom line.
    And to my veteran brothers and sisters, Representative 
Lynch, my colleague and friend, asked you, how do you reconcile 
your service as a citizen of D.C., in these United States and 
our Republic, how do you reconcile your service? And surely, my 
veteran brothers and sisters of D.C., surely you would support 
reconciliation within the parameters of the Constitution and 
the laws of our Republic. That's what we're discussing today.
    So, let me lay this out. If you want to make D.C. a state, 
this is what you have to do. We don't have to argue about, you 
know, whether or not it's a good idea or what the politics are 
or the money of the state and the financial sustainability of a 
51st state in the form of D.C.
    The land was originally ceded by Maryland--that was 
originally ceded by Maryland--Virginia got its land back long 
ago. The land now we're talking about was ceded by Maryland--
must be returned to the people of Maryland. This would require 
a constitutional act, legislation. You can't get past that. 
Whether or not there was a specific provision in the original 
cession does not negate the fact that the spirit of the ceded 
land was to form the land upon which the Nation's capital would 
be built.
    So, in the spirit of that original agreement and cession of 
land, it'd have to be returned to the people of Maryland. Then 
the Maryland state legislature would have to pass new 
legislation ceding the land to a proposed 51st state.
    So, Congress would have to pass legislation giving the land 
back to Maryland; then Maryland would have to pass legislation 
allowing the land to be ceded to a proposed 51st state. Good 
luck with both of those. But the reality is, that's what would 
have to be done.
    Then the 23rd Amendment--you can't get past this. The 23rd 
Amendment will have to be repealed by an additional amendment 
to the Constitution. There's no guarantee that that would 
happen. That would have to be done first.
    And then, finally, every one of these clearly required 
legislative actions at the Federal and state level will no 
doubt be challenge via Article III. These court challenges will 
have to be defeated in Congress in order to move forward with 
any intent to make D.C. a state.
    So, Mr. Smith, I ask you, please, in my remaining time, 
sir, just as briefly as you can, just comment on whether or not 
there is a path forward for D.C. Statehood? And does it not 
require legislative action in Congress, at the state level in 
Maryland, and then by constitutional amendment?
    And I thank Madam Chair for her kindness regarding our 
time.
    Mr. Smith?
    Mr. Smith. Thank you, Congressman.
    Yes, there is a pathway to D.C. Statehood, and it's through 
the Article V amendment process. That way would certainly 
remove any questions, would remove any doubt, about the status 
of the District of Columbia.
    Additionally, if other voting rights want--if Congress 
wanted to give other voting rights to the residents of the 
District of Columbia, again, they could certainly do that 
without making the District a state through a constitutional 
amendment.
    Any litigation, doubts, questions could be resolved by 
invoking the Article V amendment process.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Higgins. Thank you, Madam Chair.
    Chairwoman Maloney. The gentleman from Maryland, Mr. 
Mfume--and we apologize for the technical problems we had. Mr. 
Mfume, you're now recognized.
    Mr. Mfume. Thank you very much, Madam Chair. And thanks 
again for holding this hearing.
    The ``mute'' button wouldn't let me mute, so I couldn't get 
off of the screen to do that. But, anyway, now that we're back 
in operation, I want to go back to Mr. Smith's testimony, if I 
might.
    Mr. Smith, you were naming a number of significant people, 
elected and appointed, who were opposed to statehood, and you 
mentioned former Congressman Fauntroy. What was his opposition, 
do you know?
    Mr. Smith. I do, Congressman. Delegate Fauntroy was 
advocating for other voting rights legislation for District 
residents, but he was saying that he--he wanted to be clear 
with other Members of Congress that he was not advocating for 
D.C. Statehood----
    Mr. Mfume. Well----
    Mr. Smith [continuing]. Because, in his words, that would 
be in direct defiance of the----
    Mr. Mfume. I'm going to reclaim my time on that, Mr. Smith. 
I'm not trying to figure out where Mr. Fauntroy was in the 
1970's but, rather, where he was all along since then. And he 
was a big, strong advocate of D.C. Statehood. In fact, we took 
a train, he and I and a number of Members of Congress, from New 
York back down to Washington, with each stop having a rally for 
D.C. Statehood. So, I think you probably want to check your 
facts on that, because Walter Fauntroy was not against 
statehood.
    Now, on the other side, I want to just go back, if I might. 
I think I might be, Madam Chair, one of the only three or four 
Members of Congress that voted in 1993 in favor of statehood 
and voted last year the same way. And I remember the argument 
then from my colleagues on the other side of the aisle. It was 
not ``this is a power grab,'' as we continue to hear now, but 
it was that D.C. couldn't handle its own finances, so go show 
us and prove to us that you can run a city and be financially 
responsible and then come back and then we'll consider 
statehood.
    Well, 28 years later, here we are. And I want to go to Mr. 
Lee for just a few questions.
    Mr. Lee, what is the percentage of revenue generated 
locally, not by the Federal Government?
    Mr. Lee. About three-quarters of the revenue are generated 
locally.
    Mr. Mfume. Thank you. And for how many years have you had a 
clean audit?
    Mr. Lee. Twenty-four years.
    Mr. Mfume. And that's been consecutive, correct?
    Mr. Lee. Consecutive. That's correct.
    Mr. Mfume. And are your pension funds fully funded?
    Mr. Lee. Yes, Congressman.
    Mr. Mfume. Thank you. And in terms of capital reserves, are 
you at a level that most banks and other such institutions 
consider to be proper?
    Mr. Lee. That's correct. And our triple-A credit rating 
that was granted a few years ago is a reflection of that.
    Mr. Mfume. Thank you.
    So, I think the notion now is no longer can you handle your 
own financial business but whether or not this is going to be a 
power grab.
    Madam Chair, I don't have any other questions. I want to 
yield my time to the Mayor of the District of Columbia and 
thank her again for her testimony.
    Mayor Bowser. Thank you. Thank you, Congressman, for 
focusing on the District's healthy finances, and we want to 
thank our Office of the Chief Financial Officer.
    I also want to recognize the work of the Council of the 
District of Columbia and Council Member Chair--Council Chairman 
Phil Mendelson. The council has undertaken a number of measures 
that we have imposed on ourselves, that are in our local law, 
that will help us maintain those healthy finances.
    I also just want to say, Madam Chair, there have been a 
number of statements about this power grab by Democrats in the 
Congress. And I have to say, our quest for statehood has 
nothing to do with the current Congress. Our quest for 
statehood is longstanding, and it's really rooted in our 
values--in the values of both parties. We talk about fairness 
and democracy and justice, but we also support the principles 
of liberty and freedom and local autonomy. And that is what 
H.R. 51 embodies for the residents of the District of Columbia.
    So, we stand ready to work with you on the passage. We know 
that the issues that have been raised have been roundly 
refuted. Our Congresswoman put on the record the testimony of 
Viet Dinh, who is a conservative constitutional scholar who 
squarely deals with the issues related to the 23rd Amendment.
    Your colleague Congressman Raskin, in our last hearing, 
squarely dealt with the issues of Maryland's interest--or 
Maryland's no-longer interest in what makes up the District of 
Columbia.
    And H.R. 51 squarely deals with the issue of the Federal 
District. The Congress will continue to exercise plenary 
authority over the Federal District.
    Chairwoman Maloney. OK. Thank you very much.
    The gentleman yields back.
    The gentleman from South Carolina, Mr. Norman, is 
recognized for five minutes.
    Mr. Norman, you're now recognized.
    Mr. Norman. Thank you, Madam Chairman.
    Let me just bring up some things that we've been discussing 
here for the last, I guess, hour and a half. The fact that, you 
know, this is simply a power grab. And the reason it's a power 
grab is the fact that the 23rd Amendment gets in the way of 
what the Democrats are trying to do without any Republican 
support.
    The things that had been brought up about--D.C. would not 
have an airport, which most states have, if not all. The 
dealership--I will tell you that the only dealership now is a 
Tesla dealership, which is, I think, a high-end car. The only 
way the solvency of Mayor Bowser is because of Federal 
subsidies that subsidize the city. They have no source of 
income. In South Carolina, we have farming. In South Carolina, 
we have manufacturing. In South Carolina, we have mining. This 
new state, if it's formed, will have none of that.
    And, Mr. Smith, let me ask you, getting back--the crux of 
this issue is the 23rd Amendment. You acknowledge, in the 
Constitution, the seat of government is right now in 
Washington, DC, correct?
    Mr. Smith. Correct, Congressman.
    Mr. Norman. The 23rd Amendment provides D.C. residents 
participation in the Presidential elections. It appoints a 
number of electors of President/Vice President equal to the 
whole number of Senators and Representatives as if it were a 
state, and it shall be no less than the least populous state.
    What is the least populous state in this country?
    Mr. Smith. I am not sure of that right now, Senator.
    Mr. Norman. It's Wyoming. It's Wyoming. They have three.
    How many electors in the District entitled--which are 
entitled under the 23rd Amendment are there?
    Mr. Smith. Three electors, Congressman.
    Mr. Norman. Three electors. So, it's of the least populated 
state, which is Wyoming.
    And under if H.R. 51 is passed, the 23rd Amendment would 
still stay intact, correct?
    Mr. Smith. That is correct, Congressman.
    Mr. Norman. And under the bill proposed, all of D.C. would 
become a state, except a tiny sliver, which is the size of a 
park, which would become the Federal District, correct?
    Mr. Smith. That is correct, Congressman.
    Mr. Norman. So, that means the 23rd Amendment and Article 
I, Section 8--this tiny new area would become the Nation's 
capital or the new seat of power. It would still have the three 
electoral votes for President and Vice President, correct?
    Mr. Smith. Under the terms of the 23rd Amendment, that is 
correct.
    Mr. Norman. OK.
    And the new seat of power under this scheme would only have 
within it the White House, the U.S. Capitol, and some other 
Federal buildings and the National Mall and some monuments. Is 
that right?
    Mr. Smith. That is my understanding. It's a very small 
area.
    Mr. Norman. So, really, the only permanent residents in 
this new created seat of power would be the President, occupied 
by Mr. Biden. Is that right?
    Mr. Smith. It is certainly conceivable that the First 
Family would be the only residents or one of only a handful of 
residents of this new area.
    Mr. Norman. Sir, is it your understanding the--Mr. Biden 
would become electors and would be voting in the electoral 
college in the 2024 election and would be still entitled to 
three electoral votes? Is that correct?
    Mr. Smith. Well, H.R. 51 purports to deal this situation by 
saying, essentially, anyone who lives in this new rump capital 
area would be entitled to cast their ballots in their previous 
state of residence if they would otherwise be qualified except 
for living in this new capital area. And, unfortunately, that 
doesn't deal with the constitutional issues and creates some of 
its own as well.
    But it is conceivable under the 23rd Amendment that, yes, 
the First Family would potentially control three electoral 
college votes.
    Mr. Norman. So, under this plan, the only residents in the 
new D.C. would be the President and his or her cronies. Is that 
right?
    Mr. Smith. They would--I'm not sure if they would be the 
only residents, Congressman, but they would certainly be, if 
not the only residents, one of only a handful of other 
residents of this new area.
    Mr. Norman. Because you only have the Capitol, some Federal 
buildings, the National Mall, and then, from my understanding, 
some monuments.
    Mr. Smith. That is correct, Congressman. I'm not sure if 
other living arrangements are interspersed to some degree 
throughout there. But, again, the First Family would certainly 
play an outsized role in the selection of three Presidential 
electors.
    Mr. Norman. So, in your opinion, this is not voter 
suppression, this is not restricting voters, it's not racially 
motivated, it's not disenfranchisement. It's about the 23rd 
Amendment, which this partisan Congress is trying to avoid and 
get around without changing the Constitution.
    Mr. Smith. Well, this is a constitutional issue, 
Congressman. And a previous Justice Department report that 
looked at this issue explicitly said this is not a racial 
issue, this is not a civil rights issue, this is a 
constitutional issue that goes to the very core of our Federal 
system of government.
    Mr. Norman. And it's being dismantled by the Democrats.
    Mr. Smith. Well, this--H.R. 51 certainly has serious 
constitutional issues with it, in my opinion, Congressman.
    Chairwoman Maloney. The gentleman's time has expired.
    The gentlewoman from Michigan, Ms. Tlaib, is now recognized 
for five minutes.
    Ms. Tlaib. Thank you so much, Chairwoman.
    And thank you all so much for this critically important 
hearing. And really appreciate the partnership and leadership 
of Congresswoman Norton on our committee for constantly 
bringing this to our attention.
    I think it's important to note that D.C. Statehood should 
not be a partisan issue. I know that's what you hear here. I 
think the messaging on the part of my colleagues on the other 
side of the aisle would be different if it was a predominantly 
Republican district. I mean, we truly are literally talking 
about democracy versus, you know, being able not to have 
democratic access to making sure that you are represented at 
all levels of government. And we also can't claim to support 
self-determination and democracy and oppose D.C. Statehood. 
It's that simple.
    So, since my friends across the side of the aisle love to 
talk about taxation, local control, and Federal overreach 
whenever it happens in their states, I'd like to focus on these 
topics as they impact D.C. residents.
    Congress has always required D.C. residents to pay all 
Federal taxes while denying D.C. residents a vote in Congress 
on how the money is spent. D.C. residents have no vote on the 
Federal laws that govern them and no vote on the Federal 
executive branch and judicial branch officials who enforce and 
interpret those laws.
    In fact, we here in Congress, who come from places like 
Idaho, Texas, California, have the final says on the local laws 
that govern D.C. residents and on the local executive branch 
and judicial branch officials who enforce and interpret those 
laws.
    So, Mr. Henderson, other than the United States, how many 
democracies deny the residents of their capital voting 
representation in the national legislature?
    Mr. Henderson. To my knowledge, Congresswoman, no countries 
deny their national capital's votes in the national 
legislature.
    Ms. Tlaib. That's right, Mr. Henderson, and I appreciate 
that. None. That's the answer. This represents an extraordinary 
violation of a democratic principle America claims to 
represent, right? Our country claims to represent the 
importance of representation.
    So, now let's look at taxation. In Fiscal Year 2019, we 
continue to hear that D.C. paid $27.5 billion in Federal taxes. 
That's more than 22 other states and territories. In fact, D.C. 
paid more taxes than Montana, Alaska, Wyoming, Vermont, all the 
U.S. territories, and all the U.S. foreign-deployed 
servicemembers combined.
    Put simply, if you oppose D.C. Statehood, you support 
taxation without representation. Do you hear me? If you oppose 
D.C. Statehood, then you support taxation without 
representation.
    And let's not forget that people of D.C. have always 
answered the call to serve whenever their country needed them, 
right? Including Mr. Wingo, who is with us today. And many of 
the National Guard who have protected our Capitol since January 
6 come from the D.C. community.
    In opposing D.C. Statehood, which is overwhelmingly 
supported by the people of Washington, these Representatives 
and their dark-money backers over at The Heritage Foundation--
that's right--are telling over 700,000 Americans to sit down, 
shut up, and enjoy this authoritarian system implemented by a 
bunch of elites who thought it was OK to enslave people for 
their selfish monetary gain hundreds of years ago.
    It is shameful that anyone would claim to support democracy 
and freedom and oppose statehood.
    Thank you, and I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    And the gentleman from Pennsylvania, Mr. Keller, is now 
recognized.
    Mr. Keller?
    Mr. Keller. Thank you, Madam Chair.
    When our Republic was founded, both New York City and 
Philadelphia had been the capital city of the United States, 
but in July of 1790, Washington, DC, became the permanent 
capital.
    The Founders' reasoning for this was, as James Madison 
stated in Federalist No. 43, that if the capital city were 
situated within a state, the Federal Government would be 
subject to undue influence by the host state.
    Even discounting the continuous shortfalls in the D.C. 
budget on an annual basis, the burden that this new state would 
likely put on surrounding states through devices like commuter 
taxes, and the alarmingly large unfunded pension liabilities 
that would become the responsibility of the American taxpayer, 
the fact remains that, without nullifying the 23rd Amendment, 
D.C. Statehood is unconstitutional.
    I'm sure we've all seen the quote on the D.C. license 
plate. It reads, ``End taxation without representation.''
    So, Mayor Bowser, thank you for being here today. And I 
thank all the witnesses. Is statehood the only way to end 
taxation without representation?
    Mayor Bowser. Thank you, Congressman. It is, Congressman, 
because that's the only way the people of Washington, DC, would 
be able to elect two Senators.
    Mr. Keller. OK. So, the answer is the only way we can do it 
is without--without granting them a state.
    What if D.C. were to retrocede back Maryland, allowing D.C. 
citizens representation in both the House and the Senate? 
Wouldn't that give them representation?
    Mayor Bowser. We are not residents of Maryland, 
Congressman. We're residents of Washington, DC.
    And I'm reminded of a similar----
    Mr. Keller. OK----
    Mayor Bowser.--question being posed to the people----
    Mr. Keller. Is this about----
    Mayor Bowser.--of the territory of Arizona. And they----
    Mr. Keller. Excuse me. I'm going to claim my time back. 
Mayor, I claim my time back.
    The point is that the citizens of Washington, DC, can be 
able to vote on representation and Senators. But your point is 
that they're Washington, District of Columbia. And I know the 
bill, at least in the last Congress, actually renamed 
Washington, DC. So, I guess the point I would make is, there is 
a pathway to have people in D.C. be able to vote for Senators 
and Representatives.
    And I know there's been a lot of talk about the District's 
current unfunded pension liabilities and what might change as a 
result of the new statehood being stood up. So, I know there 
was testimony for the pension liabilities, but did the Federal 
Government put any money into the D.C. pensions?
    Mayor Bowser. The Federal Government contributed to D.C. 
pensions in early--are you talking about in the Reorganization 
Act? Is that what you're referring to?
    Mr. Keller. Well, what I'm saying is, it was mentioned that 
D.C. was in such good financial standing and their pensions 
were fully funded. Do you know how much over, I'll say, the 
last 24, 25 years has been contributed to the pension fund from 
the Federal Government?
    Mayor Bowser. Well, Congressman, I could get back to you 
and get you a number on the negotiations around the District 
Reorganization Act.
    Mr. Mendelson. Madam Mayor?
    Mr. Keller. Well----
    Mayor Bowser. I think the chairman has a specific----
    Mr. Mendelson. Well, I have--Congressman, this is Phil 
Mendelson. I have oversight over the retirement board, so I'm 
quite familiar with this.
    Since 1997, the Federal Government has not contributed to 
the District's share of the pensions. Not at all. Not one----
    Mr. Keller. Excuse me.
    Mr. Mendelson [continuing]. Cent. There are----
    Mr. Keller. I----
    Mr. Mendelson [continuing]. A number of Federal Government 
employees who are part of the pension program, and the Federal 
Government does pick up their share. But the District has 100 
percent paid its pension obligations since 1997.
    Mr. Keller. The Federal Government did not, over the last 
24 years, contribute $4.5 billion to bail out the pension fund?
    Mr. Mendelson. No. And not--no, it did not.
    Mr. Keller. That's the number--that's the numbers that I 
was actually given.
    So I guess, Mayor Bowser, do you support--I guess you don't 
support retrocession.
    Mayor Bowser. I do not support retrocession, and neither do 
the residents of Maryland.
    Mr. Keller. Well--and, again, this is about giving people 
the opportunity to vote on Senators and Representatives. And 
it's clear to me that D.C. was never intended to become a state 
and has not shown it's ready for statehood.
    In any case, we have the things that have happened since 
the beginning of our Nation. The fact that in Pennsylvania, in 
Philadelphia, in New York was at a point in time the seat of 
Federal Government, but it was chosen to be Washington, DC, so 
that the Federal Government would not be contained within a 
single state that would have any undue influence over the 
Federal Government.
    I just look at this--there are ways to do this that would 
be constitutional. And just looking at that, I think that we 
should be looking at those items if we're really serious about 
making sure people have that opportunity.
    Thank you, and I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Illinois, Mr. Davis, is recognized for 
five minutes.
    Mr. Davis?
    Mr. Davis, can you please unmute?
    We're having technical problems. Mr. Sarbanes is now 
recognized. We'll come back to Mr. Davis when the 
technicalities are fixed.
    Mr. Sarbanes, you're now recognized.
    Mr. Sarbanes. Thank you very much, Madam Chair. Can you 
hear me OK?
    Chairwoman Maloney. Yes, we can. Yes, we can.
    Mr. Sarbanes. Great. Thank you.
    Well, first of all, let me thank Congresswoman Holmes 
Norton for her amazing leadership over so many years.
    [Audio interruption.]
    Mr. Sarbanes. I think we've got somebody who's not muted.
    Chairwoman Maloney. Mr. Keller, can you please mute?
    OK. Mr. Sarbanes, you're recognized.
    Mr. Sarbanes. Can we give me another 15 seconds maybe? I'd 
appreciate it.
    Anyway, I want to thank Congresswoman Holmes Norton for her 
really indefatigable--that means she never got fatigued--
leadership over so many years, certainly over the last two 
Congresses, in pushing this legislation forward. It's a credit 
to her, the coalition, and the District of Columbia, and all of 
those who've stepped forward.
    I want to thank Mayor Bowser for her testimony and all 
who've been part of the panel today.
    Mayor Bowser, when you were speaking, I was taking notes, 
because you were capturing the essence of what this is about. 
There's been a lot of back-and-forth on, sort of, the 
constitutional questions, and I'll probably get to some of 
those myself, but here are some of the phrases that you shared 
with us.
    The need to extend full democracy to the residents of the 
District of Columbia.
    The right to full representation in Congress.
    The fact that the disenfranchisement of Washingtonians is 
one of the most glaring remaining civil rights issues of our 
time. That's not an overstatement; that's an accurate 
recognition of the situation.
    You pointed out the fact that, in the early days, there was 
high interest in correcting this wrong, but somehow, over time, 
that interest began to wane. What changed? Well, you put your 
finger on it. You called it out. What changed is the population 
of the District changed from White to Black. And then the 
standard began to change as well, in terms of this imperative.
    You said District residents are still not free, as we 
remain--i.e., the residents of the District of Columbia--
disenfranchised by this body, by Congress, which can do things 
to fix the situation.
    And we keep hearing that this is not the way to do it, that 
we should have the property go back to Maryland and then 
Maryland should turn around and create the state and so forth.
    Mr. Sarbanes. That's not a viable option. Republicans know 
it's not a viable option. So, if you keep proposing that, what 
you're really saying is you're comfortable with the fact that 
700,000 residents of the District of Columbia will continue to 
be disenfranchised.
    This is a problem that we have to solve, and what Eleanor 
Holmes Norton has put forward is that solution: statehood for 
the District of Columbia. We just need to get it done.
    Now, let me turn briefly to a couple of questions here. 
These are things that I've sort of gleaned from the minority 
report from last Congress, the views that Republican colleagues 
put forward suggesting that this proposal is for clearly 
partisan purposes, to abandon the fundamental notion of a 
United States by rewriting the very definition of statehood to 
include a municipal-level government.
    Well, Ms. Schwartz, I'm not aware that a municipal-level 
government is not eligible for this kind of change. Does the 
Admissions Clause of the Constitution describe particularly 
what types of states may be admitted into the Union? Does it 
get into that detail?
    Ms. Schwartz. No. The text of the Constitution is silent on 
that, which means it's left to the discretion of Congress.
    Mr. Sarbanes. The minority views have also said that the 
Founders deliberately designed the Constitution so the seat of 
the Federal Government would not be within any state.
    Mr. Mendelson, under H.R. 51, would the Federal District be 
solely within the borders of the state of Washington, DC, or is 
it actually going to border on two states when we're done with 
this?
    Mr. Mendelson. It would be--it would border on Virginia and 
border on the new District state.
    Mr. Sarbanes. So, that's not a problem.
    And last, in the last 30 seconds, Mayor Bowser, there's 
been a suggestion that somehow the local government wasn't 
equipped to shoulder the burden of statehood, especially in 
times of crisis, but you were ready to step up recently and 
before Federal intervention. And they were suggesting that 
somehow the Metropolitan Police Department is not up to the job 
in terms of handling violence in the District, but you were 
able to do that.
    Was D.C. capable of handling the civil unrest that occurred 
recently or did it require some unique Federal intervention?
    Mayor Bowser. Yes, Congressman, the District is more than 
capable of supporting its homeland security, its local 
policing, and to be a part of the support for the Federal 
District.
    And likewise, Congressman, just like we were able to step 
up, the residents of Maryland and Virginia and their state 
police and National Guard also will step up to support the 
Federal District.
    Mr. Sarbanes. Thank you very much. I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Arizona, Mr. Biggs, is now recognized.
    Mr. Biggs.
    Mr. Biggs. Thank you, Madam Chair. I assume you can hear me 
OK?
    Chairwoman Maloney. Yes, we can.
    Mr. Biggs. Great. Thank you.
    So, like many of my colleagues, I strongly believe it's 
unconstitutional to create a state out of the District of 
Columbia by means of H.R. 51 or any similar legislation. But 
leaving the constitutional questions aside and turning from 
Washington, DC, I think it is a bad, potentially dangerous 
policy, and I think many of the Founders understood this very 
well.
    Here's James Madison writing on the topic of the Federal 
District in Federalist 43, which was published in January 1788 
as ratification of the Constitution was actually under way.
    Quote: ``The indispensable necessity of complete authority 
at the seat of government, carries its own evidence with it. It 
is a power exercised by every legislature of the Union, I might 
say the world, by virtue of its general supremacy. Without it, 
not only the public authority might be insulted and its 
proceedings interrupted with impunity; but a dependence of the 
members of the general government on the state comprehending 
the seat of the government, for protection in the exercise of 
their duty, might bring on the national councils an imputation 
of awe or influence, equally dishonorable to the government and 
dissatisfactory to the other members of the Confederacy.''
    Madison understood very well that it would be dangerous to 
subject the national capital to the jurisdiction of any one 
state in the country as diverse as the new United States.
    In fact, Madison had seen that danger firsthand. On June 
21, 1783, Madison was serving in the Confederation Congress in 
Philadelphia in what is now known as Independence Hall when a 
rowdy mob of unpaid soldiers surrounded the building and 
prevented delegates from leaving.
    Alexander Hamilton, who was also present in Independence 
Hall that day, tried to appeal to the Pennsylvania government 
to quash the mutiny, but Pennsylvania's President, John 
Dickinson, demurred.
    The Confederation Congress was subsequently compelled under 
considerable pressure to decamp to Princeton, New Jersey.
    Now, move back to the present, and I've heard that Mayor 
Bowser believes that statehood would have made the events of 
January 6 easier to contain. But given that Democratic proposal 
to shrink the Federal capital district to little more than the 
size of The Mall, I'm not sure I understand how adding yet 
another layer of jurisdiction would lead to more efficient law 
enforcement.
    Even worse, the tiny new Federal District envisioned by 
Democrats would be completely dwarfed and surrounded by a new 
state over which Congress would have no authority. And this new 
state, in turn, could easily bully the tiny Federal enclave 
into dependence on all matters of basic functioning related not 
just to security matters, but also infrastructure.
    Who would be providing electrical power to the new Federal 
District, or water, or even snow removal? Now, it's kind of 
weird to ask those questions, but I think they're pertinent.
    And I want to turn to something else that law professor 
John Baker said with regard to the 23rd Amendment, which has 
been much discussed today.
    He said the 23rd Amendment is clearly the proverbial 
camel's nose in the tent, with the tent being statehood for the 
District of Columbia. The amendment treats the District of 
Columbia as if it were a state for purposes of the electoral 
college.
    Both the amendment and the argument for D.C. Statehood are 
founded on the false premise that failure to accord the 
District equality with states discriminates against U.S. 
citizens living in the District. That premise is false for at 
least four reasons, and these are the reasons he gives.
    One, until the 23rd Amendment, citizens of the District 
were treated on an equal basis with U.S. citizens who live in 
Puerto Rico or a foreign country. After the 23rd Amendment, 
citizens of the District have under weight in the electoral 
college.
    Three, as the capital of the country, the District enjoys 
advantages not possessed by any state.
    And four, no one state should be home to and legislate for 
and have power over the capital of all the states.
    And even breaking the District of Columbia into its new 
state, if that were to happen under H.R. 51, his fourth 
provision is really prescient.
    It says, and I'm going to expand on it here, he says in his 
piece, the provision for a Federal town in the Constitution 
addresses the need for the Federal Government to be separate 
from and not dependent on any state. It reflects the experience 
in the Philadelphia mutiny of 1783, which I've just referred 
to. And I won't go any further into that.
    Before I ask my question to you, Mr. Smith, I want to just 
say that Utah might have had the problem with being considered 
too Mormon, but in the multiple decades that came after it, 
when Arizona came into the United States with New Mexico, that 
was not the issue at all. And when someone condescendingly says 
we should learn our history, maybe they should reflect on that 
a bit before that say that.
    With regard to that, Mr. Smith, do you worry about the 
vulnerability of a Federal District under the conditions that 
are currently proposed in H.R. 51?
    Mr. Smith. Well, I certainly think one of the reasons the 
Founding Fathers created a separate Federal District was 
exactly for the reasons you stated. They'd been through the 
experience of Philadelphia in 1783. They were concerned for the 
physical security of the national capital. They wanted to be 
sure they weren't reliant on any one state for that security.
    And even though the Mayor here today has said that her 
goals are to better protect and cooperate with the national 
government for that purpose, it's a laudable goal, but, again, 
we don't have to use much imagination for a different mayor and 
a different set of circumstances who might disagree with 
necessary safety precautions that the Federal Government would 
need to take.
    And, again, I think we certainly saw some of that 
disagreement last summer outside of the White House. And we 
even saw some of that disagreement more recently with some 
disputes over the fencing around the Capitol complex. So, there 
certainly is an inherent conflict that could percolate there.
    Mr. Biggs. Thank you. I yield back, Madam Chair.
    Chairwoman Maloney. The gentleman yields back.
    Hopefully, the challenges with Mr. Davis have been 
resolved.
    The gentleman from Illinois, Mr. Davis, is now recognized.
    Mr. Davis.
    Mr. Davis. Thank you, Madam Chairman, for a very 
informative hearing.
    And I also want to commend our colleague Delegate Norton, 
because for as long as I can remember, long before I ever came 
to Congress, Eleanor Holmes Norton was pushing and keeping D.C. 
Statehood in front of Congress and in front of the American 
people. And so I commend her for that.
    I have to admit that I've heard some of the most 
intellectually dishonest absurdity that I've ever been 
privileged to hear in terms of some of the rationale that I've 
heard as to why there should not be statehood for the District 
of Columbia.
    I've been a proponent of statehood for D.C. since 
elementary school when we were taught this notion that there 
ought not be any kind of situation where you paid taxes and did 
not have the opportunity to be fully represented.
    And so this notion of taxation without representation has 
always stuck with me. And I've always been amazed that people 
in the District of Columbia were paying taxes, but could not be 
represented.
    Mr. Henderson, I want to thank you for your testimony, as I 
thank all of the witnesses for their testimony and 
enlightenment that we have been able to get today. But I've 
been impressed, I've been listening to you for a number of 
years as you have been a principled advocate for many issues 
that you have testified before Congress about.
    So, what I'd like to ask you, this notion of small states, 
large states when people deal with this, are they talking about 
geography or are they talking about population?
    Mr. Henderson. Well, Mr. Davis, thank you for your 
question.
    They're clearly referring to geography in the sense that 
they're talking about, when they talk about states like 
Wyoming, which has a far smaller population than the District 
of Columbia, and yet is welcomed into the statehood ambit 
without criticism. It's clearly about the geography that 
Wyoming represents, not its population.
    But the truth is many of the arguments that you've cited 
from those on the panel really undermine the basic notion that 
we're really talking about voting rights for American citizens.
    Now, voting is the language of democracy, Mr. Davis. If you 
don't vote, you don't count. And that is, unfortunately, the 
history of our country. We have 700,000 disenfranchised 
citizens of this country who are denied the right to have a 
voting representative in our national legislature.
    And one last point that I have to make. Those who cite the 
insurrection, the Philadelphia insurrection of 1783, as the 
justification for creating a national center like the District 
of Columbia to protect the interests of Congress, flies out of 
the window in the face of the January 6 insurrection.
    We have a national capital in the District of Columbia and 
yet our Mayor was denied the right to protect the 
Representatives in our Congress from the worst insurrection 
that they have experienced since the war of 1812. That argument 
has no meaning in the 21st century as we have seen most 
recently.
    Mr. Davis. Thank you so much.
    I've still got a few seconds left, and if Hank Johnson is 
still with us and would like the time--if I ever need a lawyer, 
Hank would be my guy--I'd give him the additional time that 
I've got.
    I think Hank may be gone.
    So, at that rate, Madam Chairman, I thank you again and 
yield back the balance of my time.
    Chairwoman Maloney. Thank you.
    The gentleman from Georgia, Mr. Clyde, is recognized for 
five minutes.
    The gentleman from Georgia.
    Mr. Clyde. Thank you, Madam Chair.
    While this issue is not new to Congress, this is my first 
hearing on D.C. Statehood. And so I have questions regarding 
the practicality of D.C. Statehood, including financial 
repercussions, how the mapping would work out, giving the map--
I've seen actually it leaves out several of the Federal 
buildings, like the GSA, the FAA, and the FBI buildings.
    But, more importantly, I have serious constitutional 
concerns about the push for D.C. Statehood. And on that note, I 
must commend my colleague from the good state of Louisiana, 
Representative Clay Higgins, for his very persuasive 
constitutional argument on the constitutional concerns.
    So, my first question is for Mr. Zack Smith.
    We know that all of D.C. is on Maryland's land that was 
originally ceded from Maryland. We've also heard about the 23rd 
Amendment and the need for it to be addressed.
    But can you go over, again, what say Maryland should have 
in the District's push for statehood.
    Mr. Smith. Sure. Thank you for the question, Congressman.
    So, one of the issues is the original grant from Maryland 
to the Federal Government to create the Federal District said 
that it was for the purpose of creating the new seat of 
government, for the purposes outlined in Article I, Section 8, 
Clause 17 of the Constitution.
    And so we've heard a lot today said about Article IV, 
Section 3 of the Constitution, the Admissions Clause. And the 
Admissions Clause says that no state can be carved out from a 
portion of another state or by combining portions of other 
states without the consent of those states' legislatures. So, 
that constitutional provision is certainly implicated.
    But more to the point, again, at the time everyone 
understood that Maryland was donating this land, was giving it 
in return for it becoming the seat of the Federal Government, 
and certainly no one would have understood that Congress could 
then immediately turn around and create a new state out of that 
land.
    So, what Congress could not do immediately, it cannot do 
today simply by the passage of time.
    Mr. Clyde. All right. That sounds perfectly logical to me.
    Now, turning to Mayor Bowser.
    Mr. Smith just outlined some of the Founders' intention for 
the Federal District. Do you agree that the Founders' original 
intent was to have the district be only a Federal city and not 
a state? And can you answer that yes or no?
    I believe your mic is not on.
    Mayor Bowser. The Founders required a Federal District of a 
maximum size. They did not limit the size. And so I think they 
specifically did not--they said that the Federal District could 
only be a certain size large, but they left open the 
possibility of it being smaller.
    So, the Federal District would persist----
    Mr. Clyde. Right. That's not my question. My question is 
not the size of it. My question was, do you agree that the 
Founders' original intent was to have the district be only a 
Federal city and not a state? Do you agree with that, yes or 
no.
    Mayor Bowser. I do not agree that the Founders didn't 
contemplate that this district would have self-governance, 
representation, or function as a city, county, and a state, 
because that's how we function.
    Mr. Clyde. But they didn't make it a state, OK, and I think 
that was quite intentional.
    All right. So, let's talk about representation that you 
just mentioned, all right? Let's go back to Mr. Smith for a 
minute.
    There are some alternatives to D.C. Statehood which would 
provide representation to D.C. residents in Congress without 
violating the Constitution. Is that correct?
    Mr. Smith. That is correct, Congressman. And, in fact, 
those proposals have been put forward before in the 1970's. An 
amendment was proposed that would treat the District as though 
it were a state for congressional representation without 
actually making the District itself a state.
    Mr. Clyde. Or it could be those residents could also vote 
in Maryland. Is that not correct?
    Mr. Smith. If the appropriate constitutional amendment 
process was followed, they could do that as well, Congressman.
    Mr. Clyde. OK. All right.
    So, back to Mayor Bowser.
    Is the intent for representation or is the intent for 
eliminating taxation?
    Mayor Bowser. The District is proud to pay its fair share 
of taxes, Congressman. What we are here to ask you to correct 
is to make sure that we have representation for those taxes. 
Our Constitution----
    Mr. Clyde. OK. So, what we could do instead, then, is we 
could say, all right, what if the residents of D.C. were exempt 
from Federal taxes?
    Now, you have representation already when it comes to 
Presidential elections. And also you have representation in the 
Congress with Delegate Norton. Though she doesn't have a direct 
vote, she can certainly introduce bills, because she introduced 
H.R. 51.
    So, if the residents of D.C. were exempted from, say, 50 
percent of Federal taxes because they have some representation 
already, would that be acceptable?
    Mayor Bowser. It is not acceptable, nor do I think it would 
be acceptable to the residents of your district if they were 
asked to not get full representation.
    Mr. Clyde. But your residents would not pay Federal taxes, 
just like Puerto Rico does not pay Federal taxes or Guam or 
Mariana Islands or American Samoa. They're not a member of a 
state, they're a district, they're a territory, similar to a 
territory. So, I think that would be fair.
    Mayor Bowser. Well, I'm not aware of a bill before the 
Congress that would take away billions of dollars from the 
Federal Treasury, the billions that we contribute to the 
Federal Treasury each year.
    Mr. Clyde. But that would change the taxation without 
representation, correct?
    Mayor Bowser. I think that it is--it would take away us 
paying taxes.
    Mr. Clyde. OK.
    Mayor Bowser. And I think that that would be a detriment to 
the Union.
    What we're saying--we're not trying to shirk our 
responsibilities as Americans, Congressman. We are demanding--
--
    Mr. Clyde. But it would put you in exactly the same place 
as Puerto Rico, Guam, the Mariana Islands, and American Samoa. 
Is that not correct?
    Chairwoman Maloney. The gentleman's time has expired.
    The gentlelady may answer.
    Mr. Clyde. Thank you, Madam. I yield back, Madam Chair.
    Mayor Bowser. Thank you, Madam Chair.
    As I mentioned earlier to the ranking member, the residents 
of the District of Columbia sent me here for one purpose. They 
have voted. Eighty-six percent of our electorate says they want 
to be full Americans. They want to be full taxpaying Americans. 
They're not interested in shirking their responsibilities as 
they have done for the history of our Nation, served our 
Nation, paid our taxes.
    And all we are asking you today is to correct an anomaly of 
our history to make sure that we have full representation, with 
our Congresswoman getting a vote and having two United States 
Senators.
    That is what is before this Congress, and that is what is 
in the complete power of this Congress to do, to grant D.C. 
Statehood.
    Chairwoman Maloney. Thank you.
    The gentlewoman from Illinois, Ms. Kelly, is recognized for 
five minutes.
    Ms. Kelly.
    Ms. Kelly. Thank you, Madam Chair.
    I, too, want to thank our Delegate from D.C.
    And thank you to the Mayor for your patience with all of 
these questions and the other witnesses.
    The Admissions Clause of the Constitution gives Congress 
the authority to admit new states. However, the Supreme Court's 
``equal footing'' doctrine prohibits Congress from imposing 
conditions and limitations on new states that Congress cannot 
impose on existing states.
    I want to clarify that H.R. 51 imposes no such conditions 
or limitations on the state of Washington, DC. The bill 
expressly declares that the state would be, quote, ``admitted 
into the Union on an equal footing with the other states in all 
respects whatever.''
    In Coyle v. Smith the Supreme Court struck down a condition 
Congress imposed on the new state of Oklahoma, saying, quote, 
``The constitutional equality of the states is essential to the 
harmonious operation of the scheme upon which the Republic was 
organized.''
    During the markup of H.R. 51 last Congress our Republican 
colleagues filed many amendments that would have imposed 
policies on the new state as a condition of admission, 
including on guns, reproductive health, and collective 
bargaining.
    Ms. Schwartz, does H.R. 51 comply with the equal footing 
doctrine?
    Ms. Schwartz. I have not encountered anything in the bill 
that would lead me to suspect that it does not comport with the 
equal footing doctrine.
    Ms. Kelly. Thank you.
    Mayor Bowser, does the state of Washington, DC, seek to 
enter the Union on anything other than an equal footing with 
the other states?
    Mayor Bowser. That is exactly how we would like to enter, 
Congresswoman.
    Ms. Kelly. Thank you.
    The state of Washington, DC, is simply seeking to enter the 
Union in the same way that every other state entered the Union. 
It is asking for equal treatment, not special treatment.
    And I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    The gentleman from Texas, Mr. Fallon, is now recognized.
    Mr. Fallon.
    Mr. Fallon. Yes, Madam Chair. Can you hear me all right?
    Chairwoman Maloney. Yes, we can.
    Mr. Fallon. Thank you so much for having the hearing. I 
find all this interesting. Fascinating, in fact.
    I want to thank all the witnesses for coming and sharing 
their time with us.
    I had a quick question, then some comments.
    Mayor Bowser, thank you for coming today. You've answered 
lots of questions and you've heard lots of opinions and facts 
thrown out by colleagues, both Democrats and Republicans. I had 
a quick question for you, because this has been alluded to, not 
so much by you, but by others, and you're the Mayor of the 
city.
    Do you believe that Washington, DC, has been historically 
denied statehood based on racial grounds? Do you think that 
that has been a premise?
    Mayor Bowser. I think it certainly contributed.
    Mr. Fallon. OK. So, what I find interesting is, I like--and 
thank you for your answer--I like data. And so what we did was, 
we looked up the census data from 1800. In Washington, DC, at 
the time it was 10,666 White residents and only 4,027 African-
American residents. In 1830, 30 years later, there was still a 
White majority with 27,563 and only 12,271 African-American 
residents.
    Fast-forward 120 years, there's still a White majority in 
Washington, DC, 517,865, according to the census, and only 
280,803 African-American residents, almost a two-to-one White 
majority. Then it did change in the 1950's.
    So, I found it disheartening and, quite frankly, insulting 
that one of my colleagues, not the Mayor, but one of the 
colleagues, congressional colleagues, said that there was great 
momentum and interest in D.C. Statehood and then it changed and 
then it waned.
    Well, for 150 years there was a White majority in the 
District and it never became a state. And I'm unawares of any 
hearings in Congress to that effect back during those 150 
years. There may have been, but I've never seen any reference 
to it and I fancy myself an amateur historian and a history 
minor in college. So, it doesn't seem like that is, actually, 
factually historically accurate at all.
    And then, furthermore, we've heard today for hours about 
the concern with 700,000 folks not having full rights of a 
citizen of these United States. But we don't seem to have a lot 
of concern, and, in fact, H.R. 51 was the first bill that we've 
heard for any statehood for any of our territories, and yet 
there are 3 million residents of Puerto Rico, that's four times 
the population of Washington, DC, and we're not having a 
hearing on that.
    Now, why is that? And is this partisan? Because I've only 
been here for three months and I left a state legislature that 
prided itself on bipartisanship, but now I'm in a hyperpartisan 
environment that, again, is very disheartening, but we'll hope 
to change the culture some time and some day.
    But in 2012, 91 percent of D.C. residents voted for the 
Democratic candidate for President. Only seven percent--seven 
percent--voted for the Republican candidate. In 2016, it was 91 
percent to 4 percent. And in 2020, it was 92 percent to 5 
percent. That is complete and utter dominance.
    To say that we don't know what the partisan makeup of the 
delegation of Washington, DC, would be is farcical and it's 
laughable.
    Puerto Rico, on the other hand, while probably we would 
agree leans Democrat, they have had Republican governors 
recently. So, I suspect that is why we're not hearing a bill 
about Puerto Rican Statehood right now but rather Washington, 
DC.
    And then, last, what is the intent, what was the intent of 
the Founders? That clearly was that this would be a Federal 
city. There's almost no doubt. And we came here, having a 
serious discussion, but of course it was.
    And then we have a constitutionality issue with the 23rd 
Amendment.
    So, there is a way to make Washington, DC, a new state, but 
it's not through simple legislation introduced by this Chamber. 
Retrocession is an interesting idea because then all 700,000 
residents of Washington would have a say in Congress, both the 
House and the Senate, and that would solve the no taxation 
without representation issue.
    Madam Chair, thank you for the time. I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Vermont, Mr. Welch, is now recognized 
for five minutes.
    Mr. Welch. Thank you very much.
    I want to, of course, thank the Mayor, and I want to thank 
the folks from Washington for your assistance on behalf of the 
people you represent.
    And, Chair Maloney, I want to thank you for following 
through on this.
    And, of course, to our wonderful Delegate, Eleanor Holmes 
Norton, thank you.
    Just one comment to start with. The January 6 issue--
``issue'' is hardly the right word--but my total understanding 
from reading the reports is that the Mayor and city of 
Washington was ready to respond. And keep in mind, this Federal 
District, the folks who came here did so at the invitation of 
the person who lived at 1600 Pennsylvania Avenue.
    So, I don't see how statehood for D.C. would have 
interfered with the ability of Washington to, in fact, protect 
Congress when, in fact, it was the resident of 1600 
Pennsylvania Avenue who invited folks to come here.
    I am totally in support of the right of citizens in 
Washington to be able to have representation through elected 
Representatives.
    And now what I would like to do is yield the balance of my 
time to my colleague, Jamie Raskin.
    Mr. Raskin. Thank you very much, Mr. Welch, for that. I 
appreciate it.
    We've just heard from several of our colleagues on the 
other side of the aisle about how Democrats win elections in 
the District of Columbia by 90 percent or 92 percent or what 
have you, as if we should all understand that the implication 
of that is constitutionally relevant; that because it's 
lopsided in favor of one party, that those people shouldn't be 
represented in Congress.
    The Supreme Court rejected precisely this logic in a 
decision called Carrington v. Rash in 1965 where military 
servicemembers were disenfranchised, actually in Texas, on the 
theory that they did not know, they were stationed in Texas for 
several years, they didn't really know the local political 
culture.
    And the Supreme Court said nothing could be more in tension 
with the Constitution than the idea that we keep people from 
voting by virtue of the way we expect them to vote, that we try 
to gerrymander the electorate to keep people from voting based 
on the predicted ideology of how they would vote.
    Perhaps I could go back to Mr. Wingo, who fought for the 
country and is working with veterans apparently to fight for 
statehood.
    What do you make of all these arguments that the District 
of Columbia is too Democratic to be admitted into the Union?
    Mr. Wingo. Thank you, Congressman Raskin.
    Well, what I make of it is, I agree with you, just is 
irrelevant as far as the Constitution is concerned.
    And, one, I want to thank Representative Holmes Norton for 
her tireless fight and, as a fellow Yale Law grad, what she 
said about the Constitution.
    What I think is the Founders would point to the fact that 
veterans, for those who wanted to fight for their Nation, as 
happened out of Maryland. The history of the Baltimore 
Independent Company, 400, who Washington, George Washington 
himself said, we must not forget what these 400 men did.
    And so what I would say, sir, is that the party 
affiliation, it's more about people and about those who are 
committed to serve democracy and are willing to die for that.
    Mr. Raskin. In the Declaration of Independence Jefferson 
spoke of the consent of the governed as being an organizing 
principle for the country, along with the unalienable rights of 
the people, but the consent of the governed is at the heart of 
it. The first three words of the Constitution are ``We the 
people,'' and that, of course, included people who lived in the 
area that is now the District of Columbia, although it was not 
that when the Constitution was written.
    Why do you think we're getting all of these arguments that 
are doing everything that they can to run away from the consent 
of the governed?
    You know, there are no car dealerships in Washington, DC. 
The last set of hearings we had they were talking about parking 
privileges and how Members of Congress might not have the same 
parking privileges if the new state were created?
    I was just chastised by one of our colleagues, who I'm not 
quite sure I totally understood the argument, but he was 
basically saying that it is illegitimate to record the actual 
history of race and religion and partisanship being used 
against people trying to attain the level of political equality 
through statehood admission.
    Mayor Bowser, would you agree, from your study of it, that 
race and religion and partisanship have almost always been 
turned into factors against the major principle which should be 
in play, which is the consent of the governed?
    Mayor Bowser. Absolutely, Congressman, and thanks for that 
question. And I was interested in the earlier question about 
the role of race in the history of D.C. suffrage, self-
government, and now the movement for statehood.
    In fact, two historians have written about it extensively, 
and I commend it to the committee, to read ``Chocolate City.'' 
It's a big volume.
    If you don't have the time to read that, you can read a 
recent report by D.C.'s Federal City Council, and the Federal 
City Council is one of our preeminent business organizations. 
But they commissioned a report as well called ``Democracy 
Deferred: Race, Politics, and D.C.'s Two-Century Struggle for 
Full Voting Rights.''
    The truth is that over 220 years we've had various 
experience with suffrage for Black men, with Black men being 
able to run for office, to it all being stripped away, to 
having appointed officials, to now the situation where we're 
at, which is wholly, wholly inadequate, which is limited home 
rule.
    And what we know with limited home rule, that we don't have 
representation here in this House. Our Congresswoman cannot 
vote for a final bill. And when Democrats aren't in power she 
hasn't been able to vote in committee. So, that's important.
    But what we've also seen in the last year is that we don't 
have complete autonomy; that the whims of a leader can impose 
his will on the people of the District of Columbia, squashing 
the voices of their elected officials and squashing their laws.
    That's anti-democratic, and it's un-American, and it has to 
be fixed now.
    Mr. Raskin. Thank you, Mr. Welch.
    I yield back, Madam Chair.
    Chairwoman Maloney. The gentleman's time has expired.
    The gentleman from California, Vice Chair Gomez, is 
recognized for five minutes.
    Mr. Gomez. Thank you, Madam Chair.
    Real quick, I just want to go remind people that the 
Constitution does not establish any prerequisite for new 
states. However, Congress has generally considered three.
    First, residents must have a commitment to democracy, and I 
think that applies to Washington, DC.
    Second, residents must support statehood. Each time D.C. 
has voted overwhelmingly to support statehood.
    Third, the state must have the population and resources to 
support itself.
    D.C. satisfies all three prerequisites.
    First, residents have been petitioning for over 200 years 
for local self-government.
    Second, D.C. residents supported statehood, and I believe 
it was 86 percent in 2016.
    Third, D.C. has a larger population than Wyoming and 
Vermont, and it has a larger budget than 12 states. D.C. pays 
more in Federal taxes than 21 states and more Federal taxes per 
capita than any other state. D.C. has a triple bond rating, and 
I think most states would be envious of that.
    Finally, Federal funds comprise a lower percentage of D.C. 
government revenue than the national average for state 
governments. For example, the Federal Government provides 39 
percent of the state government revenue in Kentucky and only 23 
percent of the D.C. government's revenue.
    Dr. Lee, in 2014, the late Federal and D.C. budget expert 
Alice Rivlin testified that D.C. has the population and 
resources to support itself.
    Do you agree with Ms. Rivlin's assessment?
    Mr. Lee. Yes, I do, Congressman Gomez. And as I've 
testified, we have demonstrated that through 24 consecutive 
years of audits that shows a balanced budget each of those 
years. And so I completely agree with Dr. Rivlin's analysis.
    Mr. Gomez. Thank you.
    Mayor Bowser, Senator Tom Cotton has said the following 
about D.C. Statehood, and I quote: ``Washington also doesn't 
have the 'diversity of interests and financial independence' 
that Madison explained were necessary for a well-functioning 
state. Yes, Wyoming is smaller than Washington by population, 
but it has three times as many workers in mining, lodging, and 
construction--and ten times as many workers in manufacturing. 
In other words, Wyoming is a well-rounded, working-class state. 
A new state of Washington would not be.''
    Senator Cotton does not seem to think the right type of 
people live in Washington, DC.
    Mayor Bowser, what is your response to Senator Cotton's 
statement?
    Mayor Bowser. It's absurd, but we've heard a lot of absurd 
things from him.
    And I would just go back to your statements, Congressman, 
in your introduction. The Constitution does not set out types 
of industry that have to be in a state in order to be admitted 
to the state. That is the entire province of this Congress.
    And what we have laid out, also importantly, is that we can 
support ourselves, that we do support ourselves, that the 
Federal interest in the District is no different than it is for 
any other state, save for the reimbursement you provide us for 
the security that we provide for Federal functions. So, we can 
support ourselves.
    More than that, you heard from our Chief Financial Officer 
that the makeup of our work force, unlike most people think, is 
not entirely Federal Government employees. In fact, that's only 
a quarter of our work force. And we've seen over the last 10 to 
15 years growing diversification of our jobs.
    We've also grown, and a lot of the smaller states that 
you've mentioned don't have the type of growth that we have and 
the type of economic development that we forecast that is going 
to allow us to continue to invest in our new state in the 
functions that we need to handle.
    Mr. Gomez. Mayor Bowser, I graduated from graduate school 
in 2003 and I moved to Washington, DC, with a lot of my 
classmates, and these folks were committed to public service, 
but wanted to do it at the Federal level. And a lot of them 
actually live in Washington, DC, and they're so committed that 
they've been involved in local politics, they ran for the 
school board, help people get elected to City Council.
    So, these are folks that are committed, and I know that 
there's people that are long-term residents of Washington, DC, 
have even greater commitment.
    So, I don't understand why we wouldn't allow these folks 
who have committed themselves to not only the betterment of 
their community, but also the betterment of their country, not 
have representation at the Federal level. That's why I support 
D.C.'s petition to form a state.
    With that, I yield back.
    Mayor Bowser. Thank you, Congressman.
    Chairwoman Maloney. The gentleman yields back.
    The gentlewoman from Massachusetts, Ms. Pressley, is now 
recognized for five minutes.
    Ayanna Pressley? Ayanna?
    I think we lost her. OK.
    Before we close, I want to offer the ranking member an 
opportunity to offer any closing remarks he may have.
    Ranking Member Comer, you are now recognized.
    Mr. Comer. Well, Madam Chair, let me begin by sincerely 
thanking you for holding this hearing today. We appreciate 
that, because a lot of bills that we voted on, on the floor 
this year, have had no committee hearings.
    So, this is a major piece of legislation, H.R. 51, and I 
think it's really important that we try to resemble some form 
of regular order in the House of Representatives, and having 
committee hearings like this is a step in the right direction. 
So, I want to thank you for that.
    But let's be realistic about this bill. This bill is only 
here because there's a desire from the left to create two new 
U.S. Senate seats, for various reasons. This bill is all about 
two new U.S. Senate seats.
    This is plan B of Nancy Pelosi's political power grab. Plan 
A was elimination of the filibuster in the Senate. That has 
gone down in flames. So, plan B is to make Washington, DC, a 
state, to add two new U.S. Senate seats.
    Plan C will be to stack the Supreme Court to ensure plan B 
doesn't get thrown out in the courts because it's 
unconstitutional.
    So, I think that both sides have done an admirable job of 
presenting the facts. But the fact of the matter is very 
simple: This is another example of partisan political power 
grab that we've seen since the beginning of this Congress.
    So, I will remind everyone that there's not a single 
Republican in Congress, in the House or the Senate, that 
supports this bill.
    And I think that, hopefully, in the future we can hold 
hearings on things that are a little bit more pressing at the 
time, like the border crisis, or we still have a number of 
schools that haven't reopened, and the issues that the working 
Americans care about.
    So, Madam Chair, again, thank you for holding this hearing. 
I appreciate the Mayor's attendance.
    And I yield back the balance of my time.
    Chairwoman Maloney. The gentleman yields back.
    And in recognition of the Representative from the District 
of Columbia, I would like to recognize her for a closing 
statement and thank her for her selfless work over 30 years of 
achieving this goal of representation.
    Ms. Norton. Thank you very much, Madam Chair. Thanks really 
is owed to you for giving us this early hearing.
    I'd just like to clarify two technical points.
    One has to do with the 23rd Amendment, which kept being 
raised. It is true that the District has three electoral votes. 
If we got statehood, there would be three more.
    May I predict that once that occurred, lightning fast, you 
will see an amendment go through the Congress to repeal the 
23rd Amendment giving us, the District of Columbia, three 
electoral votes. The first to vote, the first perhaps even to 
lead it, would be the Members on the other side of the aisle.
    Second, on the question of retrocession, which kept being 
raised, Maryland gave the land in perpetuity. The issue of 
statehood at that time was never raised, so you couldn't deny 
it or be for it. There is no remaining interest left if you 
look at the words that Maryland used in giving the land to the 
District of Columbia.
    But isn't it interesting, Madam Chair, that in mentioning 
Maryland, my friends on the other side did not mention, even 
though Maryland has supported statehood, did not mention what 
does Maryland want.
    Maryland has only one large city, Baltimore. If, in fact, 
somehow the District could be retroceded, if that were even 
constitutional, to Maryland, then, of course, Maryland would be 
dominated by Baltimore and the District of Columbia.
    Therefore, I think, before you go talking about Maryland, 
you ought to ask Maryland. I think Maryland has spoken, because 
every member of its delegation supports D.C. Statehood except 
for one Republican member.
    I thank you very much for this very important hearing, 
Madam Chair. I think we're on our way to statehood for the 
District of Columbia.
    Chairwoman Maloney. Thank you so much.
    And before my closing statement, I want to recognize Ayanna 
Pressley from Massachusetts. She was having some technical 
difficulties. She's now back on with us. And I'd like to 
recognize her for her statement, her five minutes.
    Ms. Pressley, you're recognized.
    Ms. Pressley. Thank you, Madam Chair. Thank you for holding 
this hearing and continuing to prioritize this fight to 
establish the state of Washington, DC.
    And in this fight, there certainly has been no greater 
champion or stalwart than my sister in service, Representative 
Eleanor Holmes Norton. You've organized, you've advocated, 
you've legislated, and, might I add, you've tolerated some 
condescending and, I would add, microaggressions.
    Thank you for the grace and thought leadership as a Yale 
alumni, law school alumni, that you've brought to this space 
today and this work. I'm very honored to serve alongside you.
    For many years, D.C. was affectionately known as Chocolate 
City. The vibrant Black community defined this town and 
provided a professional and cultural scene rich in Black joy, 
love, and excellence. But Congress continuously denied D.C. a 
locally elected government for much of its history.
    Now, today, the state of Washington, DC, would be 46 
percent Black, which would make it the state with the highest 
percentage of Black people in the entire country, and its 
congressional district would be a majority-minority 
jurisdiction.
    I represent the Massachusetts Seven, a majority-minority 
District in my home state. These districts are critical for 
making the needs of people of color, for ensuring our voices 
are heard in the policymaking process, and for diversifying the 
Halls of Congress.
    Now, in the Senate today there are only three Black 
Senators and not a single Black woman in the entire body. The 
structure of the Senate gives disproportionate power to small, 
predominantly White states. It has been estimated that the 
Senate gives the average Black person in America only 75 
percent of the representation of the average White person in 
America.
    In the midst of our national reckoning on racism and those 
who are quick to quote Dr. King and John Lewis but obstruct 
things like D.C. Statehood, uplifting Black political power 
must be a part of the conversation. We cannot allow electoral 
justice for the people of Washington, DC, to be denied any 
longer.
    Now, last year, the day before the House of Representatives 
passed H.R. 51, Senator Cotton said the following about the 
bill, quote: ``Would you trust Mayor Bowser to keep Washington 
safe if she were given the powers of a governor? Would you 
trust Marion Barry?''
    Now, both Bowser and Barry, who died in 2014, are Black, 
and even on the floor of the U.S. Senate Senator Cotton 
apparently felt compelled to communicate to a certain audience. 
That wasn't a dog whistle; that was a bullhorn. His objection 
to statehood was related to the possibility of an African-
American governor.
    Now, he said this with full knowledge of the role White 
supremacy has played in our democracy. There have been only two 
Black elected governors in the history of this country. 
Massachusetts had one of them, Deval Patrick. Now, more than 
230 years, only two Black governors.
    I'm going to make it plain: D.C. Statehood is a racial 
justice issue. And racism kills. And I don't just mean police 
brutality and hate crimes and food apartheid systems and 
transportation deserts and unequal access to healthcare. I mean 
all of that, too. But racism kills our democracy.
    Mr. Henderson, as someone who was both born and raised in 
D.C. and has been a national civil rights leaders for many 
years, what role did race play in that denial and what role 
does race play in the opposition to H.R. 51?
    Mr. Henderson. Thank you, Representative Pressley, for the 
question.
    You know, American history is replete with examples of race 
interfering with our democracy in the worst possible way.
    I've devoted my career and the organizations that I've 
worked for, including the Leadership Conference on Civil and 
Human Rights, to building an America as good as its ideals, to 
helping to develop a more perfect Union. It means coming to 
terms with issues of race and juxtaposing those issues with 
American democracy in the fullest sense of that.
    We are striving now to achieve the ideals that the Founding 
Fathers set out for the country but have never been fully 
accomplished. That's where we are today. That's what we're 
struggling to accomplish. The racial reckoning that you 
mentioned in your introductory comments is a very important 
part of that.
    Hopefully, the D.C. Statehood issue will be seen both as a 
democratic issue, but also as a racial justice issue for those 
who have so long been denied the opportunity of having full 
representation in the District.
    Thank you.
    Ms. Pressley. Thank you, Mr. Henderson. Thank you.
    Do I still have time?
    Your Leadership Conference has more than 200 civil and 
human rights organizations as members. Could you tell me why 
D.C. Statehood is a priority for this broad and diverse 
coalition?
    Mr. Henderson. Of course. It is because we are committed as 
a coalition to the fullness of American democracy in all 
aspects of what we do. And struggling to accomplish the voting 
rights and democracy for the 712,000 representatives or 
citizens of the District is an important part of that effort to 
build the more perfect Union we've talked about.
    Ms. Pressley. And, Mayor Bowser, can you elaborate on how 
naming the future state of Washington, Douglass Commonwealth, 
is an act of racial justice?
    Chairwoman Maloney. The gentlelady's time has expired, but 
the Honorable Mayor may answer.
    Ms. Pressley. I yield.
    Mayor Bowser. I'll answer quickly, because, Congresswoman, 
you laid it out and made it plain. I had forgotten those 
comments of Senator Cotton.
    But it is very clear that we are proud of our diversity. We 
believe that our diversity makes us stronger. And we're proud 
of our history of Black political power.
    And in no way do we think that that should prevent us from 
what should be our rights as Americans and as taxpayers in this 
Nation.
    We believe very strongly that it is a civil rights and a 
voting rights issue that suppresses the voices of thousands of 
African Americans in the Nation's Capital.
    Ms. Pressley. Thank you.
    Chairwoman Maloney. The gentlewoman's time has expired. 
Thank you. Thank you.
    The gentleman from Florida, Mr. Donalds, is now back on, is 
recognized.
    Mr. Donalds.
    Mr. Donalds. Thank you so much, Chairwoman.
    And to the witnesses, thank you. I've been listening to 
this hearing for, obviously, the last several hours on the 
road.
    I really just have one question. This is actually quite 
simple. And this is, I guess, for Mayor Bowser.
    Seeing that the layout of the proposed state is essentially 
the city limits of Washington, DC, as it is today, are there 
plans to dissolve your City Council? Because if you have 
essentially a state legislature and a governor, then what is 
the purpose of the D.C. City Council at that point?
    Mayor Bowser. Well, thank you for that question, 
Congressman.
    And we have, our voters and our Council, which is our 
legislature, has approved the Constitution for our new state, 
and our Constitution contemplates making our current Council of 
the District of Columbia the state legislature for the state of 
Washington, DC. And we would expand that Council by, I think, 
seven--eight seats, to expand it by eight seats, to be a 21-
person state legislature.
    Mr. Donalds. That's all I got.
    I yield back. Thank you, Madam Chair.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman yields back.
    And that concludes our hearing.
    And I now would like to recognize myself.
    I'd like to thank all the members for a strong debate and 
thank the witnesses for their insight and participation on this 
critical civil rights issue.
    As has been said many times today, statehood for D.C. is 
about fairness and equality. Our Nation is founded upon the 
idea that all people should have a voice in their government. 
But without voting representation in Congress, the people of 
D.C. are denied that most basic right.
    The demand for D.C. residents to be given their equal 
rights, that they are the very foundation of our democratic 
Republic, is not a political ploy. It is an effort to right the 
wrong of more than 200 years of disenfranchisement.
    D.C. residents are American citizens. They fought, they 
fought honorably to protect our Nation overseas. They pay 
taxes. They deserve representation. I want to, again, thank 
them for their patience and their dedication to securing the 
rights they deserve.
    And a very special thank you to Eleanor Holmes Norton 
today.
    In closing, I want to thank our panelists for their 
remarks, and I want to commend my colleagues for participating 
in this important conversation.
    With that, and without objection, all members will have 
five legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response. I ask our 
witnesses to please respond as promptly as possible.
    And this hearing is adjourned.
    [Whereupon, at 3:01 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
